     Office of Inspector General
     for the Millennium Challenge Corporation


                                                        June 1, 2011


Mr. Daniel W. Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Mr. Yohannes:

Enclosed is the final report on the Risk Assessment of the Millennium Challenge Corporation’s
Information Technology Governance Over Its Information Technology Investments (Report
No. M-000-11-001-O). The Office of Inspector General (OIG) contracted with the independent
certified public accounting firm of Clifton Gunderson LLP (Clifton Gunderson) to conduct the risk
assessment. Clifton Gunderson conducted their risk assessment in accordance with United
States Generally Accepted Government Auditing Standards, as amended.

Clifton Gunderson determined that MCC’s information technology (IT) governance processes for
the selected IT governance areas ranged from maturity level ratings of Initial/Ad hoc through
Managed and Measurable. Weaknesses in MCC’s IT governance processes may increase IT
project costs, lengthen deployment, and deliver solutions that do not satisfy business needs.

As MCC continues to select and manage its information technology investments, it is important
to correct weakness and to have formal IT governance. This will assist in ensuring IT objectives
are correlated with business objectives and IT investments are prioritized and managed to
effectively support Agency initiatives.       Therefore, Clifton Gunderson’s report makes
23 recommendations to help MCC achieve an appropriate level of information technology
governance and control. In addition, Clifton Gunderson’s report makes 17 suggestions to help
MCC implement best practices which are of lesser priority. Although OIG will not formally track
the suggestions, MCC should consider prioritizing and implementing them, as appropriate.

In carrying out its oversight responsibilities, the OIG reviewed Clifton Gunderson’s report and
related risk assessment documentation.           The OIG’s review, as differentiated from an



Millennium Challenge Corporation
1401 H. Street N.W. Suite 770
Washington, DC 20005
www.usaid.gov/oig
                                             -2-

audit in accordance with U.S. Generally Accepted Government Auditing Standards, was not
intended to enable the OIG to express, and we do not express an opinion on MCC’s IT
governance over its IT investments. Clifton Gunderson is responsible for the enclosed risk
assessment report and the conclusions expressed therein. However, our review disclosed
no instances that Clifton Gunderson did not comply, in all material respects, with applicable
standards.

To address the weaknesses reported by Clifton Gunderson, OIG is making the following
recommendations to MCC’s management:

   Recommendation 1: We recommend that the Millennium Challenge Corporation
   Chief Information Officer update the information technology strategic plan to reflect
   current enterprise strategic goals.

   Recommendation 2: We recommend that the Millennium Challenge Corporation
   Chief Information Officer develop and implement a formal process for managing risk
   and updating the information technology strategic plan accordingly.          Risk
   management must drive enterprise architecture decisions, providing secure
   information system environments for critical applications. The plan should be
   reviewed at a minimum annually and when major events occur that have an impact
   on strategic goals. When updating the information technology strategic plan the
   Chief Information Officer should verify compliance with the Office of Management
   and Budget Circular No. A-130, Management of Federal Information Systems, with
   regard to the capital planning and investment control process which includes the
   information resource management strategic plan and the information technology
   capital plan which is required to be updated twice yearly.

   Recommendation 3: We recommend that the Millennium Challenge Corporation
   Chief Information Officer complete the enterprise information architecture planning
   and implementation project as discussed in the Executive Level Notional OCIO 2
   Year Portfolio in order to maintain an information architecture that reflects the
   business requirements.

   Recommendation 4: We recommend that the Millennium Challenge Corporation
   Chief Information Officer develop and implement a project plan for leveraging data as
   indicated in the authoritative data source process and methodology in order to
   provide business users access to detailed information to aid in analysis and decision
   making.

   Recommendation 5: We recommend that the Millennium Challenge Corporation
   Chief of Staff develop and implement a formal process that must be consistently
   applied for the Enterprise Architecture Steering Committee to prioritize information
   technology-enabled investment programs.

   Recommendation 6: We recommend that the Millennium Challenge Corporation
   Chief of Staff formally document and implement a process requiring the Enterprise
   Architecture Steering Committee to consider risk management when discussing
   strategic direction and approval of information technology investments.
                                         -3-

Recommendation 7: We recommend that Millennium Challenge Corporation Chief
Information Officer (1) conduct an analysis to determine whether the information
technology function has sufficient resources to adequately support the business
goals and objectives of the organization and (2) through the organization's budgeting
process, submit a written request for additional resources to address any shortfalls
identified in the analysis.

Recommendation 8: We recommend that the Millennium Challenge Corporation
Deputy Chief Financial Officer revise the budget policy and procedures to account for
the change from line item budgeting to project budgeting.

Recommendation 9: We recommend that the Millennium Challenge Corporation
Chief Information Officer develop a process and implement a tool for monitoring
project plans and work completed to determine earned value, providing an early
warning of performance issues impacting project budgets.

Recommendation 10: We recommend that the Millennium Challenge Corporation
Chief Information Officer define quality requirements, criteria, and key performance
indicators for evaluation of quality management for key information technology
processes.

Recommendation 11: We recommend that the Millennium Challenge Corporation
Chief Information Officer identify and document standards, procedures, and practices
for key information technology processes to guide the Agency in defining and
evaluating criteria for quality management.

Recommendation 12: We recommend that the Millennium Challenge Corporation
Chief Information Officer implement a process to incorporate the following
components into its projects:

•   A project governance structure that includes the roles, responsibilities, and
    accountabilities of various key players in project management.
•   Project sponsors assigned for the execution of each project.
•   Project office and project manager.
•   Elements such as approving the initiation of phases, communicating to all
    stakeholders the status of projects, establishing an integrated project plan,
    project quality plan, and defining the responsibilities of project team members.
•   Project risk management through the process of planning, identifying, analyzing,
    responding to, monitoring and controlling risk.
•   Project change control.
•   Lessons learned.
                                        -4-

Recommendation 13: We recommend that the Millennium Challenge Corporation
Chief Information Officer implement a process to verify that risk management plans
and Exhibit 300 business cases are consistently used, monitored and updated
annually for all information technology projects as required.

Recommendation 14: We recommend that the Millennium Challenge Corporation
Chief Information Officer finalize and implement the system development life cycle.

Recommendation 15: We recommend that the Millennium Challenge Corporation
Chief Information Officer develop and implement a policy to fully address the
maintenance of software applications.

Recommendation 16: We recommend that the Millennium Challenge Corporation
Chief Information Officer develop and implement a process for ensuring the
integration of software into the current infrastructure is properly planned and
executed.

Recommendation 17: We recommend that the Millennium Challenge Corporation
Director of Contracting develop and implement information technology acquisition
instructions that provide a methodology to evaluate the components of information
technology acquisition contracts.

Recommendation 18: We recommend that the Millennium Challenge Corporation
Chief Information Officer develop and implement a process to ensure end user
testing and evaluation of developed applications.

Recommendation 19: We recommend that the Millennium Challenge Corporation
Chief Information Officer develop and implement a process to ensure personnel are
trained in the use of developed applications.

Recommendation 20: We recommend that the Millennium Challenge Corporation
Chief Information Officer document and implement policies and procedures for data
conversion, testing of applications and infrastructure migration.

Recommendation 21: We recommend that the Millennium Challenge Corporation
Director of Contracting develop and implement a process to enforce the creation of
service level agreements for all endeavors requiring contract support.

Recommendation 22: We recommend that the Millennium Challenge Corporation
Director of Contracting develop and implement a process for periodic review and
feedback of performance for all contractors to improve service delivery and support
early detection of potential problems.
                                            -5-

   Recommendation 23: We recommend that the Millennium Challenge Corporation
   Chief Information Officer develop and implement a monitoring process to ensure that
   all information technology projects are provided a priority level commensurate with
   the direction and goals of the Agency as a whole, not with the goals of individual
   leaders within the Agency.

Based on Clifton Gunderson’s evaluation of MCC’s comments, OIG agrees with the
management decisions reached on Recommendations 17, 21, and 22. However, MCC
could not reach management decisions for the remaining 20 recommendations because
MCC has not determined target dates for completing the planned actions. Please provide
target dates to address the remaining 20 recommendations within 6 months of the date of
this report.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of
Clifton Gunderson.


                                                   Sincerely,

                                                       /s/

                                                   Alvin A. Brown
                                                   Assistant Inspector General
                                                   Millennium Challenge Corporation



cc:
Steven M. Kaufmann, Chief of Staff
Victoria B. Wassmer, Vice President, Department of Administration and Finance
Dennis Lauer, Chief Information Officer
Dennis E. Nolan, Deputy Chief Financial Officer
Jim R. Blades, Director of Contracting
Arlene McDonald, Compliance Officer
                                           τ

Α1



      RISK ASSESSMENT OF THE MILLENNIUM CHALLENGE
   CORPORATION’S INFORMATION TECHNOLOGY GOVERNANCE
      OVER ITS INFORMATION TECHNOLOGY INVESTMENTS

                            May 13, 2011




4250 N. Fairfax Drive
Suite 1020
Arlington, Virginia 22203
tel: 571-227-9500
fax: 571-227-9552
www.cliftoncpa.com
CONTENTS
SUMMARY OF RESULTS .............................................................................................................. 1 
RISK ASSESSMENT RESULTS .................................................................................................... 4 
   PLAN AND ORGANIZE (PO) ....................................................................................................................... 4 
   DELIVER AND SUPPORT (DS) .................................................................................................................. 21 
   MONITOR AND EVALUATE (ME) ............................................................................................................ 25 
RISK ASSESSMENT CONCLUSION ........................................................................................... 30 
EVALUATION OF MANAGEMENT COMMENTS........................................................................ 31 
SCOPE AND METHODOLOGY.................................................................................................... 32 
   SCOPE ...................................................................................................................................................... 32 
   METHODOLOGY ...................................................................................................................................... 32 
MANAGEMENT COMMENTS ...................................................................................................... 37 
COBIT MATURITY MODEL MEASURMENT CRITERIA............................................................. 47 
MAPPING NIST 800-53 REV 3 WITH COBIT 4.1 ........................................................................ 69 
SUMMARY OF RESULTS
The Millennium Challenge Corporation (MCC) was created by the U.S. Congress in
January 2004. MCC is an independent U.S. foreign aid agency that is helping lead the
fight against global poverty. A relatively small organization, MCC currently employs
approximately 300 personnel, including 7 IT personnel plus contractor support.
Clifton Gunderson (CG) LLP was engaged by the Assistant Inspector General (AIG) for
the Millennium Challenge Corporation (MCC) to conduct a risk assessment of MCC’s
information technology (IT) governance over its IT investments. IT governance provides
the structure that links IT processes, resources and information to enterprise strategies
and objectives. The objectives are to (1) align IT with the business, enable the business,
and maximize resources; (2) use IT resources responsibly; and (3) appropriately
manage IT risks.
Our risk assessment focused on MCC’s governance process related to selecting,
managing and controlling its IT investments. The outcome of our assessment was to
identify weaknesses in controls that could impact MCC’s ability to align IT risk with the
enterprise risk management framework, correlate IT objectives with business objectives,
set the tone from the top, make risk based business decisions, and manage IT
investments in a manner that is perceived as a value in supporting business initiatives.
The objective of the assessment was to answer the following question:
    What are MCC’s risks for selecting, managing and controlling its information
    technology investments?
Our assessment resulted in a scorecard for capturing measurements and provides a
view of areas where risks may arise in achieving organizational goals and identifying
areas for improvement. We determined that MCC’s IT governance processes for the
selected IT governance areas ranged from maturity level ratings of Initial/Ad hoc through
Managed and Measurable. Weaknesses in MCC’s IT governance processes may
increase IT project costs, lengthen deployment, and deliver solutions that do not satisfy
business needs. Closing these control gaps will help ensure MCC achieves maximum
benefit from developing an appropriate level of IT governance and control.
The scorecard below summarizes the results of the review:




                                                                                        1
          Millennium Challenge Corporation IT Governance Over its IT Investments
                                        SCORECARD
      Control Objectives for Information and related Technology (COBIT) Maturity Model




                                                                                                  2 - Repeatable but
                                                                             1 - Initial/Ad-Hoc




                                                                                                                                     4 - Managed and
                                                      0 - Non-existent




                                                                                                                                                           5 - Optimized
                                                                                                                                     Measurable
                                                                                                                       3 - Defined
                                                                                                                       Process
                                                                                                  Intuitive
Maturity Level
Planning and Organization
PO1                 Define a Strategic Plan                                                                               X
PO2                   Define the Information
                                                                                                      X
                      Architecture
PO4                   Define the IT Processes,
                      Organization and                                                                X
                      Relationships
PO5                   Manage the IT Investment                                                                            X
PO8                   Manage Quality                                     X
PO10                  Manage Projects                                                                 X
Acquire and Implement
                   Acquire and Maintain
AI2                                                                      X
                   Application Software
                   Acquire and Maintain
AI3                                                                                                   X
                   Technology Infrastructure
AI5                   Procure IT Resources                                                                                X
                      Install and Accredit
AI7                                                                                                   X
                      Solutions and Changes
Deliver and Support
DS1                 Define and Manage Service
                                                                                                                          X
                    Levels
DS2                 Manage Third Party
                                                                                                                                         X
                    Services
DS10                Manage Problems                                                                                                      X
Monitor and
Evaluate
ME1                   Monitor and Evaluate IT
                                                                                                                          X
                      Performance
ME3                   Ensure Compliance with
                                                                                                                                         X
                      External Requirements
ME4                   Provide IT Governance                                                           X


                                                                                                                                                       2
In addition to identifying the levels of maturity for several areas, we also identified key
risk areas, including:
   •   MCC has not developed and implemented a process for updating its IT Strategic
       Plan to reflect current enterprise strategic goals;
   •   MCC has not developed and implemented a process for ensuring risk
       assessments are performed for all IT projects or continuous monitoring of project
       risk is occurring;
   •   MCC has not completed the enterprise architecture planning and implementation
       project in order to reflect current business requirements;
   •   MCC has not consistently prioritized IT-enabled investment programs to ensure
       all IT projects are provided a priority level commensurate with the direction and
       goals of the Agency as a whole; and
   •   MCC has not consistently implemented a project governance structure containing
       the necessary elements to ensure a disciplined project management process.
To address the issues noted above, the report documents both recommendations and
suggestions. The recommendations are in support of opportunities for improvement
deemed to be of highest priority to close control gaps. The suggestions are deemed to
be of lesser priority for ensuring best practices are achieved. The twenty-three
recommendations and seventeen suggestions are documented within the discussion
regarding each COBIT control area assessed.
In finalizing the report, we received and considered MCC’s response to the draft risk
assessment report and the recommendations included therein. In its comments, MCC
concurred with all of the recommendations, but could not yet provide timelines to
address 20 of the 23 recommendations. MCC plans to complete the timelines by
July 31, 2011.       We agree with MCC’s management decisions to address
recommendations 17, 21, and 22.
The detailed risk assessment results are discussed in the next section. Appendix I
describes the assessment’s scope and methodology. Appendix II contains MCC’s
management comments without attachments.




                                                                                         3
RISK ASSESSMENT RESULTS
Plan and Organize (PO)
Strategic Planning
The Millennium Challenge Corporation (MCC) maintains an enterprise portfolio of IT-
enabled investments in the form of the Executive Level Notional OCIO Two Year
Portfolio. The portfolio provides a high level view of the milestones, dependencies,
decision points and status of each of the IT projects. In addition, an Information
Systems Strategic Plan has been developed covering FY08 through FY10 which focuses
on realigning performance goals and resources to support a business centric, portfolio
management approach. Goals, sub-goals and performance objectives for infrastructure,
strategy, systems and capacity are discussed. The Plan outlines the portfolio
management process, prioritization of projects, budgeting and the acquisition strategy.
However, the strategic planning process does not include the development of long range
plans as the basis for building the IT Strategic Plan. In addition, MCC has not developed
and implemented a formal process for managing risk and updating the Strategic Plan
accordingly. As a result, the plan has not been maintained and is currently out of date.
According to the CIO, the plan is not properly aligned with core business requirements
since those requirements have changed over the life of the document. In addition, the
plan does not tactically address achievement of the strategic goals. A revised plan is
being developed and is scheduled for completion by March of 2011. In addition, MCC is
beginning to address risk responsibility at the enterprise level by the newly created
position, Senior Investment and Risk Officer under the direction of the Chief Executive
Officer (CEO).
IT Processes, Organization and Relationships
MCC has implemented an Enterprise Architecture Steering Committee (EASC) which
establishes a process for reciprocal involvement in strategic planning. The EASC aims
to align and integrate IT strategies with MCC's business objectives. The EASC charter
outlines the three basic tenets of the committee: 1) the EASC should be jointly chaired
by a business executive and a technical representative; 2) the EASC is an advisory and
implementation body to the Information Management Committee; and 3) direct
communication between the EASC team and all levels in the implementation oversight
and review process is expected as a means of exchanging information and building
trust. The EASC is charged with establishing both project managers and business
sponsors of all major Information Technology investments above a $300,000 threshold.
Although the committee provides oversight, a formal process is not in place for the
EASC to prioritize IT-enabled investment programs. Initially, little attention was given to
the EASC; however, the entrance of the new Chief of Staff has increased its use,
effectiveness and frequency of meetings. A Senior Investment and Risk Officer has
recently been hired to focus on risks associated with the program functions. While this
person is not a member of the EASC, increased focus on risk management by the EASC
has begun through the leveraging of the risk methodology and templates established by
the Risk Office.



                                                                                         4
We observed that the reporting line of the CIO does not reflect the importance of IT
within the Agency. The CIO has a dotted reporting line to the CEO and a direct line to
the CFO. Although the EASC is tasked with providing governance for IT projects and
the CIO has begun assigning a project manager to monitor projects, there are situations
in which the priorities of the CIO may conflict with the priorities of the CFO. This
structure has also led to the IT function lacking resources to adequately support the
business goals and objectives. The CIO conducted a benchmarking study this year to
determine the appropriate levels of funding within the IT budget, which should assist in
the appropriate level of IT staff needed. The benchmarking study indicated that MCC is
on the low end of IT spending. Over a three year period, MCC has averaged 10%
versus comparable agencies at 11% to 20%. IT resources include both full time
equivalent employees and contractors. (We are not making a recommendation to
address the position of the Chief Information Officer within the organizational structure.
A recommendation was opened from a prior audit 1 and has subsequently been closed
by the OIG 2 .)
MCC has a process in place to ensure both MCC employees and contract personnel
who support the IT function know and comply with MCC’s policies for protection of the
organization’s information assets. In addition, security requirements are outlined in
contracts and contract personnel are required to comply with the same personnel
security background requirements as MCC employees. However, for the resources
available, skill inventories of both IT and business resources are not documented to
support staffing for IT projects. Skill inventories would allow project managers to staff
projects with the most appropriate subject matter experts throughout the organization.
Finally, in addition to the relationship the IT function maintains with the EASC, MCC has
developed a communication and liaison structure between the IT function and various
other interests outside the IT function, such as the Office of Inspector General (OIG), the
Office of Management and Budget (OMB) and the Audit Committee. These relationships
help the CIO ensure an understanding and focus on Federal requirements and process
improvements.
Defining the Information Architecture
MCC has developed and implemented a data classification scheme, which provides a
consistent approach for describing, categorizing and employing MCC data in a standard
and consistent manner across the Agency. Core data is used across all of MCC.
Common data is used across two working groups or divisions and distinct data is used
within one working group or division. In addition, data has been classified according to
protection requirements. An enterprise data dictionary or Data Reference Model (DRM)
is being completed and is on track for completion by September 2011. This will promote
a common understanding of data among IT and business users and allow for the sharing
of data elements among applications and systems. The DRM is part of an overall
Enterprise Content Management strategy that MCC is in the process of initiating to
formalize the organization and storage of data. The approach for the DRM is based on

1
  Audit of the Millennium Challenge Corporations Implementation of Key Components of a
Privacy Program for Its Information Technology Systems (Report No. M-000-10-003-P, July 10,
2010).
2
  Memorandum from Assistant Inspector General: Closure of Audit Recommendations 1 and 2 for
the Audit of the Millennium Challenge Corporation’s Implementation of Key Components of a
Privacy Program for Its Information Technology Systems (Audit Report No. M-000-10-003-P).

                                                                                         5
the Federal Enterprise Architecture, an initiative of the U.S. Office of Management and
Budget that intends to comply with the Clinger-Cohen Act and affords a common
methodology for information technology acquisition.
MCC is currently constructing the basic framework of an enterprise architecture lifecycle
as documented in the Executive Level Notional OCIO 2 Year Portfolio, starting with the
Business Reference Model and Data Reference Model. The enterprise information
architecture project should assist MCC in further aligning resources to increase business
performance and facilitate MCC carrying out its mission. A methodology for leveraging
information through data warehouse and data mining technologies has been determined
but implementation will not commence until the data dictionary is completed and the
ECM project is at a maturity level that would allow for leveraging data.
Managing the IT Investment
MCC has established a detailed manual for IT budget formulation policy and procedures
and a budget for IT projects has been established which includes the prioritization of
requested activities. A quarterly budget review is performed to refine budgeting
requirements based on the status of projects and changing priorities. The decision-
making process for prioritizing the allocation of IT resources is based on value and risk
as documented in the IT Strategic Plan; however, it is not consistently applied. For
example, the highest priority set by IT is the General Support System followed by IT
security; however, the process for prioritizing projects established by the business units
has not been established. Recently, the budgeting process was modified from line item
budgeting to a project based approach. The IT Budget Formulation Policy and
Procedure manual has not been updated to reflect this change. Currently there is no
clear line of site between budgeting for IT projects and monitoring of project plans in
order to determine earned value and provide early warning of performance issues
impacting project budgets.
Managing Quality
A Quality Management System (QMS) defines the organizational structure for quality
management, covering the roles, tasks and responsibilities. In addition, standards,
procedures and practices for key IT processes including development and acquisitions
that follow the life cycle of the deliverable should be documented and maintained. The
quality of IT services provided at MCC is tracked through an informal quality
management process. MCC utilizes quality satisfaction surveying which results in
improvement if issues arise. A QMS that identifies quality requirements and criteria, and
monitors performance against these requirements and criteria for continuous
improvement of IT services is not in place. In addition, MCC has not documented
standards, procedures and practices for key IT processes.
Managing Projects
MCC utilizes a portfolio tracker to monitor the status of major IT projects. Individuals
responsible for managing IT projects are required to obtain project management
certification. However, MCC does not have a project governance structure in place that
establishes elements such as a project office, project manager, project sponsors, or
steering committee for each project. Additionally, all IT projects do not have the benefit
of an assigned sponsor with sufficient authority to own the execution of the project within
the overall strategic program.        Responsibilities, relationships, authorities, and
performance criteria of project team members are not defined and the basis for acquiring


                                                                                         6
and assigning competent staff members and/or contractors to projects is not specified.
Although MCC's contracts include Service Level Agreements (SLAs), its project
management approach does not identify key criteria in which project performance of
contractors may be measured. The primary stakeholder of projects is usually the
business; however, the definition and execution of projects is typically not obtained. The
initiation of each major project phase is not approved. In addition, there is no review or
acceptance of deliverables of the previous phase nor approval of an updated business
case at the next major review of the program. This is the result of lack of consistent
project communication with all stakeholders. Although MCC tracks the status of specific
milestones on the portfolio tracker, project stakeholders are not required to ascertain
whether the project delivered the planned results and benefits. In addition, lessons
learned are not documented for use on future projects and programs. The lack of a
formal project management structure, including planning, identifying, analyzing,
responding to, monitoring and controlling risk, has lead to inconsistent application of
management practices for IT projects.
The summary of observations identified in the review as well as the assessed COBIT
Maturity Level Ranking and recommendations are provided as follows:


COBIT PO1 - Define a Strategic Plan
Observed Best Practices
1. MCC maintains an enterprise portfolio of IT-enabled investments. The Executive
   Level Notional OCIO Two Year Portfolio provides a high level view of the milestones,
   dependencies, decision points and status for each of the IT projects.

2. MCC has implemented the Enterprise Architecture Steering Committee (EASC)
   which establishes a process for reciprocal involvement in strategic planning.

3. An IT Strategic Plan covering FY08 through FY10 was developed which focused on
   realigning its performance goals and resources to support a business centric,
   portfolio management approach.

Opportunities for Improvement
1. MCC has not developed and implemented a formal process for managing risk.

2. MCC has not developed and implemented a formal process for updating the IT
   Strategic Plan to reflect current enterprise strategic goals.
3. The strategic planning process does not include the development of tactical plans to
   aid in the achievement of the strategic goals or the development of long range plans
   in order to plan for accomplishing a set of goals over a longer period of time.

Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 3 – Defined
COBIT Definition - A policy defines when and how to perform IT strategic planning. IT
strategic planning follows a structured approach that is documented and known to all
staff. The IT planning process is reasonably sound and ensures that appropriate

                                                                                        7
planning is likely to be performed. However, discretion is given to individual managers
with respect to implementation of the process, and there are no procedures to examine
the process. The overall IT strategy includes a consistent definition of risks that the
organization is willing to take as an innovator or follower. The IT financial, technical and
human resources strategies increasingly influence the acquisition of new products and
technologies. IT strategic planning is discussed at business management meetings.
Recommendations
1. We recommend that the Millennium Challenge Corporation Chief Information Officer
   update the Information Technology Strategic Plan to reflect current enterprise
   strategic goals.

2. We recommend that the Millennium Challenge Corporation Chief Information Officer
   develop and implement a formal process for managing risk and updating the
   Information Technology Strategic Plan accordingly. Risk management must drive
   enterprise architecture decisions, providing secure information system environments
   for critical applications. The plan should be reviewed at a minimum annually and
   when major events occur that have an impact on strategic goals. When updating the
   Information Technology Strategic Plan the Chief Information Officer should verify
   compliance with the Office of Management and Budget Circular No. A-130,
   Management of Federal Information Systems, with regard to the capital planning and
   investment control process which includes the Information Resource Management
   Strategic Plan and the Information Technology Capital Plan which is required to be
   updated twice yearly.

Suggestions
1. We suggest that the Millennium Challenge Corporation Chief Information Officer
   incorporate tactical planning into the strategic planning process by breaking the
   strategic plan down into short term actions and plans. A tactical plan contains a list
   of deliverables, a schedule, resources, a budget and a mapping of how it will be
   completed.

2. We suggest that the Millennium Challenge Corporation Chief Information Officer
   develop long range plans as the basis for building the Information Technology
   Strategic Plan.


COBIT PO2 - Define the Information Architecture
Observed Best Practices
1. MCC has developed and implemented a data classification scheme, which provides
   a consistent approach for describing, categorizing and employing MCC data in a
   standard and consistent manner across the Agency.

2. The Enterprise Data Dictionary or Data Reference Model (DRM) is being completed
   and is on track for completion by spring 2011 which will promote a common
   understanding of data among IT and business users and allow for the sharing of data

                                                                                          8
   elements among applications and systems. The DRM is part of an overall Enterprise
   Content Management (ECM) strategy that MCC is in the process of initiating.

Opportunities for Improvement
1. An enterprise information architecture project, as documented in the Executive Level
   Notional OCIO 2 Year Portfolio, is in early stages and needs to be completed in
   order to further align resources to increase business performance and facilitate MCC
   carrying out its mission.

2. A methodology for leveraging information (i.e., data warehouse or data mining
   technologies) has been determined but implementation will not commence until the
   Enterprise Content Management (ECM) project is at a maturity level to provide
   business users access to detailed information to aid in analysis and decision making.

Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 2 – Repeatable but Intuitive
COBIT Definition - An information architecture process emerges and similar, though
informal and intuitive, procedures are followed by different individuals within the
organization. Staff obtain their skills in building the information architecture through
hands-on experience and repeated application of techniques. Tactical requirements
drive the development of information architecture components by individual staff
members.
Recommendations
3. We recommend that the Millennium Challenge Corporation Chief Information Officer
   complete the enterprise information architecture planning and implementation project
   as discussed in the Executive Level Notional OCIO 2 Year Portfolio in order to
   maintain an information architecture that reflects the business requirements.
4. We recommend that the Millennium Challenge Corporation Chief Information Officer
   develop and implement a project plan for leveraging data as indicated in the
   authoritative data source process and methodology so as to provide business users
   access to detailed information to aid in analysis and decision making.


COBIT PO4 - Define the IT Processes, Organizations and Relationships
Observed Best Practices
1. MCC has established an Enterprise Architecture Steering Committee, clearly
   indicating key positions and roles and responsibilities of the committee.

2. Risk responsibility at the enterprise level is beginning to be addressed by the newly
   created position, Senior Investment and Risk Officer under the direction of the Chief
   Executive Officer.

3. MCC has conducted a benchmarking study to determine the appropriate levels of
   funding within the IT budget, which should ultimately assist in the determination of
   the appropriate level of IT staff needed.

                                                                                      9
4. MCC has processes in place for ensuring that consultants and contract personnel
   who support the IT function know and comply with MCC’s policies for the protection
   of the organization’s information assets.

5. MCC has developed a communication and liaison structure between external entities
   such as the OMB, OIG, External Audit Committee, and private companies.

Opportunities for Improvement
1. A formal process is not in place for the EASC to prioritize IT-enabled investment
   programs. Additionally, the EASC has not formally implemented a process to focus
   on risk management considerations.

2. The IT function is not contingent on the importance of IT within the enterprise.
   Furthermore, the reporting line of the CIO does not reflect the importance of IT. The
   CIO may have limited power in ensuring IT projects are provided a priority level
   commensurate with the direction and goals of the Agency as a whole.

3. Skill inventories are not available to support project staffing.

4. The IT function does not have sufficient resources to adequately support the
   business goals and objectives.

Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 2 – Repeatable but Intuitive
COBIT Definition - The IT function is organized to respond tactically, but inconsistently,
to customer needs and vendor relationships. The need for a structured organization and
vendor management is communicated, but decisions are still dependent on the
knowledge and skills of key individuals. There is an emergence of common techniques
to manage the IT organization and vendor relationships.
Recommendations
5. We recommend that the Millennium Challenge Corporation Chief of Staff develop
   and implement a formal process for the Enterprise Architecture Steering Committee
   to prioritize Information Technology-enabled investment programs which must be
   consistently applied.

6. We recommend that the Millennium Challenge Corporation Chief of Staff formally
   document and implement a process requiring the Enterprise Architecture Steering
   Committee to consider risk management when discussing strategic direction and
   approval of information technology investments.

7. We recommend that Millennium Challenge Corporation Chief Information Officer
   (1) conduct an analysis to determine whether the information technology function has
   sufficient resources to adequately support the business goals and objectives of the
   organization and (2) through the organization's budgeting process, submit a written
   request for additional resources to address any shortfalls identified in the analysis.



                                                                                       10
Suggestions
3. We suggest that the Millennium Challenge Corporation Chief Information Officer and
   the MCC Chief Financial Officer develop skill inventories to support staffing for
   Information Technology projects to include both Information Technology and
   business resources.


COBIT PO5 - Manage the IT Investment
Observed Best Practices
1. MCC has established a detailed manual for IT budget formulation policy and
   procedures.

2. MCC establishes a budget for IT projects. A quarterly budget review is performed to
   refine budgeting requirements based on the status of projects and changing
   priorities.

3. MCC has documented a decision-making process to prioritize the allocation of IT
   resources.

Opportunities for Improvement
1. The MCC budget process recently changed from line item budgeting to project
   budgeting (i.e., balance sheet line item vs. MIDAS project), however the budget
   policy and procedures manual does not reflect this change.

2. There is not a clear line of site between the IT budget and project tracking to
   determine earned value.

3. The decision-making process to prioritize the allocation of IT resources is not
   consistently applied. A process for determining the priority for projects established by
   the business units has not been established.

Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 3 – Defined
COBIT Definition - Policies and processes for investment and budgeting are defined,
documented and communicated, and cover key business and technology issues. The IT
budget is aligned with the strategic IT and business plans. The budgeting and IT
investment selection processes are formalized, documented and communicated. Formal
training is emerging but is still based primarily on individual initiatives. Formal approval
of IT investment selections and budgets is taking place. IT staff members have the
expertise and skills necessary to develop the IT budget and recommend appropriate IT
investments.




                                                                                         11
Recommendations
8. We recommend that the Millennium Challenge Corporation Deputy Chief Financial
   Officer revise the budget policy and procedures to account for the change from line
   item budgeting to project budgeting.

9. We recommend that the Millennium Challenge Corporation Chief Information Officer
   develop a process and implement a tool for monitoring project plans and work
   completed to determine earned value, providing an early warning of performance
   issues impacting project budgets.

Suggestions
4. We suggest that the Millennium Challenge Corporation Chief Information Officer
   develop a process to consistently implement the decision-making process to
   prioritize the allocation of Information Technology resources.


COBIT PO8 - Manage Quality
Observed Best Practices
1. MCC utilizes quality satisfaction surveying which results in improvement actions to
   address issues.

Opportunities for Improvement
1. A Quality Management System (QMS) that identifies quality requirements and
   criteria, and monitors performance against these requirements and criteria for
   continuous improvement of IT services is not in place.

2. Standards, procedures, and practices for key IT processes have not been identified
   and documented. Key IT processes include development and acquisitions that
   follow the life cycle of the deliverable.

Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 1 – Initial/Ad Hoc
COBIT Definition - There is a management awareness of the need for a QMS. The QMS
is driven by individuals where it takes place. Management makes informal judgments on
quality.
Recommendations
10. We recommend that the MCC Chief Information Officer (CIO) define quality
    requirements, criteria and key performance indicators for evaluation of quality
    management for key Information Technology processes.

11. We recommend that the MCC Chief Information Officer (CIO) identify and document
    standards, procedures, and practices for key Information Technology processes to
    guide the Agency in defining and evaluating criteria for quality management.


                                                                                   12
COBIT PO10 - Manage Projects
Observed Best Practices
1. MCC utilizes a portfolio tracker to track the status of major IT projects.

2. MCC requires project managers to obtain project management certification.

Opportunities for Improvement
1. MCC does not consistently apply formalized project management practices for all IT
   projects. Examples include:

       a. The project governance structure does not establish elements such as a
          project office, project manager, and project sponsors for all projects;

       b. The project management approach does not identify key criteria in which
          project performance may be measured;

       c. Project stakeholders are not required to ascertain whether the project
          delivered the planned results and benefits;

       d. The initiation of each major project phase is inconsistently approved, which
          may result in the lack of review or acceptance of deliverables in the previous
          phases;

       e. The responsibilities, authorities, and performance criteria of project members
          are not defined.

       f.   Lessons learned are not documented for use on future projects and programs

Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 2 – Repeatable but Intuitive
COBIT Definition - Senior management gains and communicates an awareness of the
need for IT project management. The organization is in the process of developing and
utilizing some techniques and methods from project to project. IT projects have
informally defined business and technical objectives. There is limited stakeholder
involvement in IT project management. Initial guidelines are developed for many aspects
of project management. Application of project management guidelines is left to the
discretion of the individual project manager.
Recommendations
12. We recommend that the Millennium Challenge Corporation Chief Information Officer
    implement a process to incorporate the following components into its projects:

            a. A project governance structure that includes the roles, responsibilities,
               and accountabilities of various key players in project management.

            b. Project sponsors assigned for the execution of each project.


                                                                                     13
c. Project office and project manager.

d. Elements such as approving the initiation of phases, communicating to all
   stakeholders the status of projects, establishing an integrated project
   plan, project quality plan, and defining the responsibilities of project team
   members.

e. Project risk management through the process of planning, identifying,
   analyzing, responding to, monitoring and controlling risk.

f.   Project change control.

g. Lessons learned.




                                                                             14
Acquire and Implement (AI)
Acquiring Application Software and Technology Infrastructure
MCC has drafted a System Development Life Cycle (SDLC) plan to guide development
projects and help ensure the applications developed meet desired business needs.
However, the SDLC has not been implemented. The SDLC Implementation Guide
includes roles and responsibilities and describes each of the phases of the system
development lifecycle including: Initiation, System Concept Development, Planning,
Requirements, Design, Development, Integration and Test, Implementation, Operations
and Maintenance, and Disposition. The SDLC methodology will be used for all major
information technology development projects which have been defined in legislation as
meeting one or more of the following: (1) the estimated total cost of development equals
or exceeds $1 million; (2) the project is undertaken to support a critical business
function; or (3) the Enterprise Architecture Steering Committee/CIO determines that the
project requires the special attention and consideration given to a major information
technology development project. For other changes to the MCC IT environment,
including software and hardware, review and approval is required by the MCC Change
Control Board (CCB). The CCB approval process is designed for acquisitions less than
$300,000, and is typically for non-standard software requirements requested by users.
Applications and projects of a higher cost are managed by the Enterprise Architecture
Steering Committee (EASC). Per the EASC Charter, the EASC is responsible for
establishing project managers and business sponsors for all major information
technology investments above a $300,000 threshold. An Integrated Business Team
(IPT) is responsible for defining business requirements and functions as well as detailed
design documents, which are reviewed and approved by the EASC.
MCC addresses the initial risk management of procurements through the use of Risk
Management Plans and Exhibit 300 business cases. However, these have not been
consistently used, monitored and updated annually where procurements are occurring
outside of the guidance of the Office of the Chief Information Officer. Although the
SDLC Implementation Guide briefly discusses security and risk management, detailed
policies and procedures regarding how application security, availability, and risks are
managed when procuring an IT asset are not documented. In addition, MCC has not
developed and implemented a policy to address the need to automate controls in
procured software.
Acquisition, implementation and maintenance of the technological infrastructure are not
consistently in line with the established functional and technical requirements due to the
IT Strategic Plan not being updated to align with MCC’s strategy. MCC completed a
Tool Gap Analysis and Strategy Plan to determine whether Enterprise Content
Management (ECM) platforms and tools are meeting business requirements and
performed benchmarking to determine the tools best suited for MCC. The tools and
applications reviewed were those specifically designed and used for Content
Management (CM), Business Process Management (BPM), and Records Management
(RM). The outcome of the analysis pinpointed gaps where the current ECM tools are not
aligned with business requirements. This information will be used to establish the
course of action necessary to align the required business tools with Enterprise
Architecture efforts.




                                                                                       15
Installing and Accrediting Solutions
The Agency currently ensures that newly acquired systems are accredited and performs
evaluations of implemented systems through Independent Verification & Validation
Assessments (IV&V). For example, MCC completed a post production review of MCC’s
Integrated Data Analysis System (MIDAS), launched in March 2009, through an IV&V.
However, there were several issues noted related to integration, testing and installation
of new systems. MCC has not documented policies and procedures for data conversion,
testing of applications, and infrastructure migration of new systems. Integration of
acquired software is not always considered and planned during design and testing
phases. In addition, MCC has not consistently evaluated whether user requirements
have been met and personnel are not adequately trained in the use of developed
applications. This has led to systems, such as MIDAS, entering production that are
unsatisfactory to users and require additional cost and support to function within the
technology infrastructure.
Application and Technology Infrastructure Maintenance
Maintenance and security of the technological infrastructure is outsourced to contractors
as a cost saving measure. The contracts in place include performance metrics for
maintaining the patching program.        MCC has also implemented infrastructure
vulnerability scanning to assist with patch management. However, MCC does not
currently have a strategy in place to fully address the maintenance of software
applications. IT has not been involved in the project management of all software
applications to ensure that software maintenance was considered in the long term
application strategy. The SDLC Implementation Guide describes the operations and
maintenance phase of the software development life cycle; however, detailed policies
and procedures have not been documented.
Procuring IT Resources
The agency relies largely on contractors for systems development projects. Many of the
issues previously discussed related to installing systems were due to contractors not
meeting contractual obligations such as testing and end user training. These problems
may be prevented if performance monitoring of contracts is consistently occurring.
Procedures for establishing, modifying, and terminating contracts for suppliers are
documented in the Contracting Operations Manual (COM), which is MCC’s interpretation
of the Federal Acquisition Regulations (FAR). Specifically, the COM provides clarifying
language or interpretation of the FAR where further definition is required or where
variations are required to meet the needs of MCC. Components of the COM include
legal review, performance monitoring, security and debarment, suspension and
ineligibility of contracts. The agency utilizes a Technical Evaluation Panel to ensure best
fit based on specified requirements. Although the FAR and COM are utilized to guide IT
acquisition, MCC does not have a formalized process in place to evaluate that all
components of IT acquisition have been considered. For example, performance metrics,
intellectual Property considerations, and contractual requirements are not consistently
discussed during the IT acquisition process. Additionally, there is no process in place to
ensure compliance with the policies and procedures such as post award and ongoing
contract compliance reviews.
The summary of observations identified in the review as well as the assessed COBIT
Maturity Level Ranking and recommendations are provided as follows:


                                                                                        16
COBIT AI2 - Acquire and Maintain Application Software
Observed Best Practices
1. A Change Control Board (CCB) monitors applications, including software and
   hardware changes. The approval process is designed for applications that are less
   than $300K and are typically for non-standard software requirements requested by
   users.

2. An Enterprise Architecture Steering Committee (EASC) manages higher cost
   Information Technology projects. Per the Charter, the EASC is “charged with
   establishing both project managers and business sponsors of all major Information
   Technology investments above a $300,000 threshold.”

3. MCC has drafted a Software Development Life Cycle (SDLC) to guide its
   development projects that will help ensure that the applications developed meet
   desired business needs.

Opportunities for Improvement
1. Risk management plans and Exhibit 300 business cases are not consistently used
   and monitored where procurements are occurring outside of the Office of the Chief
   Information Officer.

2. MCC has not implemented the documented System Development Life Cycle (SDLC).

3. MCC has not addressed the need to automate controls in procured software.

4. The agency does not have a policy for how application security, availability, and risks
   are managed when procuring an IT asset.

5. MCC does not have a strategy in place to fully address the maintenance of software
   applications.

Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 1 – Initial/Ad Hoc
COBIT Definition - There is an awareness that a process for acquiring and maintaining
applications is required. Approaches to acquiring and maintaining application software
vary from project to project. Some individual solutions to particular business
requirements are likely to have been acquired independently, resulting in inefficiencies
with maintenance and support.
Recommendations
13. We recommend that the Millennium Challenge Corporation Chief Information Officer
    implement a process to verify that risk management plans and Exhibit 300 business
    cases are consistently used, monitored and updated annually for all Information
    Technology projects as required.



                                                                                       17
14. We recommend that the Millennium Challenge Corporation Chief Information Officer
    finalize and implement the System Development Life Cycle.

15. We recommend that the Millennium Challenge Corporation Chief Information Officer
    develop and implement a policy to fully address the maintenance of software
    applications.

Suggestions
5. We suggest that the Millennium Challenge Corporation Chief Information Officer
   develop and implement a policy to address the need to automate controls in
   procured software.

6. We suggest that the Millennium Challenge Corporation Chief Information Officer
   develop and implement a policy for managing application security, availability, and
   risks when procuring an Information Technology Asset.


COBIT AI3 - Acquire and Maintain Technology Infrastructure
Observed Best Practices
1. MCC outsources the management of infrastructure and security components as a
   cost saving measure.

2. MCC has implemented infrastructure vulnerability scanning to assist with patch
   management.

3. MCC completed a Tool Gap Analysis and Strategy Plan to determine whether
   platforms and tools are meeting business requirements and performed
   benchmarking to determine the tools best suited for MCC.

Opportunities for Improvement
1. Integration of software into the current infrastructure is not consistently regarded in
   design or testing.

2. Acquisition, implementation and maintenance of the technological infrastructure is
   not consistently in line with the established business functional and technical
   requirements.

Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 2 – Repeatable but Intuitive
COBIT Definition - There is a consistency among tactical approaches when acquiring
and maintaining the IT infrastructure. Acquisition and maintenance of IT infrastructure
are not based on any defined strategy and do not consider the needs of the business
applications that must be supported. There is an understanding that the IT infrastructure
is important, supported by some formal practices. Some maintenance is scheduled, but
it is not fully scheduled and co-ordinated. For some environments, a separate test
environment exists.

                                                                                       18
Recommendations
16. We recommend that the Millennium Challenge Corporation Chief Information Officer
    develop and implement a process for ensuring the integration of software into the
    current infrastructure is properly planned and executed.

Suggestions
7. We suggest that the Millennium Challenge Corporation Chief Information Officer
   develop and implement a plan for aligning the acquisition, implementation and
   maintenance of the technological infrastructure with business requirements as
   defined by the revised Information Technology Strategic Plan.


COBIT AI5 - Procure IT Resources
Observed Best Practices
1. Procedures exist for establishing, modifying, and terminating contracts for suppliers.
   Components include legal review, performance monitoring, security and debarment,
   suspension and ineligibility of contracts.

2. A Technical Evaluation Panel is used to establish a formal practice to ensure best fit
   for suppliers based on specified requirements.

Opportunities for Improvement
1. MCC has not formalized a process to evaluate that all components of IT acquisition
   (i.e., metrics, intellectual property considerations, contract requirements) have been
   addressed.

2. MCC does not have a process in place to ensure compliance with policies and
   procedures for IT Acquisition prior to reviews conducted by appropriate parties, such
   as the Legal Department, the Managing Director, etc.

Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 3 – Defined
COBIT Definition - Management institutes policies and procedures for IT acquisition.
Policies and procedures are guided by the business organization’s overall procurement
process. IT acquisition is largely integrated with overall business procurement systems.
IT standards for the acquisition of IT resources exist. Suppliers of IT resources are
integrated into the organization’s project management mechanisms from a contract
management perspective. IT management communicates the need for appropriate
acquisitions and contract management throughout the IT function.
Recommendations
17. We recommend that the Millennium Challenge Corporation Director of Contracting
    develop and implement Information Technology Acquisition instructions that provide



                                                                                      19
   a methodology to evaluate the components of Information Technology acquisition
   contracts.

Suggestions
8. We suggest that the Millennium Challenge Corporation Director of Contracting
   develop and implement a process for ensuring compliance with policies and
   procedures for Information Technology acquisition.


COBIT AI7 - Install and Accredit Solutions and Changes
Observed Best Practices
1. MCC ensures that developed systems are accredited.

2. MCC performed a post-production review of an IT investment through an
   Independent Verification and Validation Assessment.

Opportunities for Improvement
1. MCC has not consistently implemented a standardized and measurable approach for
   evaluating whether user requirements have been met, which may lead to systems
   entering production that are unsatisfactory to users and management.

2. MCC has not ensured that personnel are trained in the use of developed
   applications.

3. MCC does not have documented policies and procedures for data conversion,
   testing of applications, and infrastructure migration.

Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 2 – Repeatable but Intuitive
COBIT Definition - There is some consistency amongst the testing and accreditation
approaches, but typically they are not based on any methodology. The individual
development teams normally decide the testing approach, and there is usually an
absence of integration testing. There is an informal approval process.
Recommendations
18. We recommend that the Millennium Challenge Corporation Chief Information Officer
    develop and implement a process to ensure end user testing and evaluation of
    developed applications.

19. We recommend that the Millennium Challenge Corporation Chief Information Officer
    develop and implement a process to ensure personnel are trained in the use of
    developed applications.

20. We recommend that the Millennium Challenge Corporation Chief Information Officer
    document and implement policies and procedures for data conversion, testing of
    applications and infrastructure migration.

                                                                                 20
Deliver and Support (DS)
Defining and Managing Third Party Services
A risk management strategy to identify and monitor information service providers is
applied. Business requirements have been established and are used to determine
whether skills are needed through contracting services. As such, MCC has categorized
all critical information system suppliers, and contracts are in place with each supplier.
The contracts document roles and responsibilities, goals, expected deliverables, and
credentials of representatives of these suppliers. A formal process for reviewing
contracts with suppliers at pre-defined intervals, such as at invoicing and exercising of
option years, has been implemented.
Within each IT services contract, business requirements are documented. In addition,
service level agreements (SLAs) have been developed and defined for critical IT third
party service providers. Monitoring of the SLAs has been implemented, with the
exception of services provided for the MIDAS application. For one key contract, an
award fee/bonus is available in addition to the fixed price schedule. In the case of
nonperformed or unsatisfactory work, MCC may deduct from the vendor’s invoice all
amounts associated with such unsatisfactory or non-performed work or allow the
contractor to re-perform the work within a reasonable period subject to the discretion of
the Contracting Officer Technical Representative.          For other vendors, MCC
communicates issues and requests correction; however, there is no connection between
service level agreement requirements and compensation. Additionally, MCC does not
have formalized procedures for resolving contractor performance shortfalls as was
evident with the MIDAS project. Implementing periodic review and feedback of
performance for all contractors should improve service delivery and support early
detection of potential problems.
Managing Problems
Tier-one support is provided through a third-party organization, CSC, and we noted that
a process is in place for reporting, classifying, tracking and remediating problems
through this contract. A formal process is implemented to close problem records after
successfully confirming the elimination of any known errors. Systems have been
equipped with automatic detection or warning mechanisms which are continuously
tracked and evaluated. In addition, bandwidth utilization and router availability are
tracked and reported. Analysis is performed to determine the root cause of issues
identified and monthly meetings are held with CSC senior management to discuss areas
for improvement or efficiencies.
However, MCC has not evolved the problem management process into a proactive one
that can anticipate and prevent problems or ensure that knowledge regarding patterns of
past and future problems is maintained through regular communication with vendors and
experts. Likewise, a means of producing continuous improvement based on analysis of
problem management performance measures is not a mature practice yet.
The summary of observations identified in the review as well as the assessed COBIT
Maturity Level Ranking and recommendations are provided as follows:




                                                                                      21
COBIT DS1 - Define and Manage Service Levels
Observed Best Practices
1. Business requirements have been established and are used to determine whether
   skills are needed through contracting services. Business requirements have been
   documented in each IT services contract.
2. Service levels have been developed and defined for critical IT services with some
   third party service providers.
Opportunities for Improvement
1. MCC does not have service level agreements for the contracts associated with
   MIDAS.
2. MCC does not have formalized procedures for resolving performance shortfalls of
   contractors.
Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 3 – Defined
COBIT Definition - Responsibilities are well defined, but with discretionary authority. The
SLA development process is in place with checkpoints for reassessing service levels
and customer satisfaction. Services and service levels are defined, documented and
agreed-upon using a standard process. Service level shortfalls are identified, but
procedures on how to resolve shortfalls are informal. There is a clear linkage between
expected service level achievement and the funding provided. Service levels are agreed
to, but they may not address business needs.
Recommendations
21. We recommend that the Millennium Challenge Corporation Director of Contracting
    develop and implement a process to enforce the creation of service level agreements
    for all endeavors requiring contract support.
Suggestions
9. We suggest that the Millennium Challenge Corporation Director of Contracting
   formalize procedures on resolving performance shortfalls of contractors.


COBIT DS2 - Manage Third Party Services
Observed Best Practices
1. All critical suppliers have been identified.
2. Contracts are in place with all suppliers.
3. Monitoring of SLAs with some third party service providers is implemented.
4. For one contract, defined reporting of service level achievement is linked to
   compensation.
5. Contracts with suppliers are reviewed at predefined intervals.


                                                                                        22
6. A risk management strategy is in place for all contracts.
Opportunities for Improvement
1. Defined reporting of service level achievement is not linked to compensation for all
   third-party service providers such as the services provided for the MIDAS application
   and for information security systems services.
2. Periodic review and feedback of performance is not implemented for all contractors
   to improve service delivery and support early detection of potential problems.
Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 4 – Managed and Measurable
COBIT Definition - Formal and standardized criteria are established for defining the
terms of engagement, including scope of work, services/deliverables to be provided,
assumptions, schedule, costs, billing arrangements and responsibilities. Responsibilities
for contract and vendor management are assigned. Vendor qualifications, risks and
capabilities are verified on a continual basis. Service requirements are defined and
linked to business objectives. A process exists to review service performance against
contractual terms, providing input to assess current and future third-party services.
Transfer pricing models are used in the procurement process. All parties involved are
aware of service, cost and milestone expectations. Agreed-upon goals and metrics for
the oversight of service providers exist.
Recommendations
22. We recommend that the Millennium Challenge Corporation Director of Contracting
    develop and implement a process for periodic review and feedback of performance
    for all contractors to improve service delivery and support early detection of potential
    problems.
Suggestions
10. We suggest that the Millennium Challenge Corporation Director of Contracting verify
    that all contracts, prior to award include linkage of reporting of service level
    achievement to compensation. For contracts already in place, we recommend that
    MCC include linkage of reporting of service level achievment to compensation upon
    renewal.


COBIT DS10 - Manage Problems
Observed Best Practices
1. A process is in place for reporting, classifying, tracking and remediating problems
   through the CSC contract.
2. A process is in place for detecting system issues including warning mechanisms for
   early detection.
3. Analysis is performed to determine the root cause of issues identified and monthly
   meetings are held with CSC senior management to discuss areas for improvement
   or efficiencies.


                                                                                         23
Opportunities for Improvement
1. MCC has not evolved the problem management process into a proactive one that
   can anticipate and prevent problems.
2. MCC does not consistently maintain knowledge regarding patterns of past and future
   problems through regular contacts with vendors and experts.
3. MCC does not have a process in place to ensure continuous improvement based on
   analysis of problem management performance measures.
Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 4 – Managed and Measurable
COBIT Definition - The problem management process is understood at all levels within
the organization. Responsibilities and ownership are clear and established. Methods
and procedures are documented, communicated and measured for effectiveness. The
majority of problems are identified, recorded and reported, and resolution is initiated.
Knowledge and expertise are cultivated, maintained and developed to higher levels, as
the function is viewed as an asset and major contributor to the achievement of IT
objectives and improvement of IT services. Problem management is well integrated with
interrelated processes, such as incident, change, availability and configuration
management, and assists customers in managing data, facilities and operations. Goals
and metrics have been agreed upon for the problem management process.
Suggestions
11. We suggest that the Millennium Challenge Corporation Chief Information Officer
    evaluate and update the problem management process to include processes for
    proactively anticipating and preventing future problems.
12. We suggest that the Millennium Challenge Corporation Chief Information Officer
    develop and implement a formal process for maintaining knowledge regarding
    patterns of past and future problems affecting the Agency through regular contacts
    with vendors and experts.
13. We suggest that the Millennium Challenge Corporation Chief Information Officer
    develop and implement a continuous improvement process based on analysis of
    problem management performance measures.




                                                                                     24
Monitor and Evaluate (ME)
Monitoring and Evaluating Performance
MCC has established the Enterprise Architecture Steering Committee (EASC) for
monitoring large IT investment projects above a $300,000 threshold and utlizes a
portfolio tracker to track the status of major IT projects. However, all IT projects and
processes have not been regularly monitored by OCIO due to the reporting structure of
the CIO which has, in the past, given priority to projects sponsored by the CFO, rather
than ensuring all IT projects are provided a priority level commensurate with the direction
and goals of the Agency as a whole. Recently, however the CIO has implemented a
process for monitoring projects by assigning a project manager to all IT projects.
In addition, IT Risk Management Plans and Business Cases for IT projects in the form of
Exhibit 300s are not consistently used to set performance targets. The Exhibit 300
requires documentation of the agency's mission, strategic goals, and performance
measures (indicators). On the other hand, OCIO has implemented and is monitoring
performance targets with the business in the form of the Service Level Agreements
(SLAs) documented in the CSC contract.         Monitoring these SLAs provides a
measurement of how well the information services function is contributing to the
performance of the organization.
Ensuring Compliance with External Requirements
MCC OCIO has processes in place to identify applicable laws and regulations that must
be complied with for incorporation into the IT policies, standards, procedures and
methodologies. With regard to information security, OCIO has a process in place to
assist with ensuring compliance with the Federal Information Security Management Act
(FISMA). With respect to managing IT investment projects, individuals charged with
managing projects or contracts are required to have project management certificates or
certifications for Contracting Officer Technical Representative (COTR) as specified by
the Office of Management and Budget (OMB). Concerning acquisitions of IT resources
and investments, MCC follows the Federal Acquisition Regulations (FAR). However,
MCC does not have a process in place to monitor compliance with external requirements
to ensure consistency. In addition, MCC does not have a process in place to review and
adjust policies to ensure they comply with external requirements. For example, MCC
does not have policies for adapting the FAR Part 39, Acquisition of Information
Technology, to the Agency including assessing, monitoring and controlling risk when
selecting projects for investment and during program implementation. Developing and
implementing a program management office with oversight over compliance issues may
assist the MCC OCIO in ensuring compliance with regulatory requirements and
compliance with internal policies and procedures.
Providing IT Governance
The Enterprise Architecture Steering Committee (EASC) is a governance body that is in
place to provide strategic direction to management relative to information Technology
investments and the MCC CIO regularly reports to senior management regarding the
progress of IT projects. IT project risk is initially assessed and documented through the
use of Exhibit 300s. However, risk assessments for IT projects are inconsistently
performed and there is no process in place for continuous monitoring of project risk,
including the annual update of the Exhibit 300, as required by the Office of Management

                                                                                        25
and Budget (OMB). In addition to the EASC, governance over IT processes is also
achieved through audits and reviews performed by the Office of Inspector General
(OIG).
MCC has developed baseline IT Governance indicators in the IT Strategic Plan, for
example establishing the Enterprise Architecture Steering Committee, maintaining
FISMA compliance, and completing and approving risk assessments and OMB Exhibit
300s for IT projects. Although baseline governance indicators have been developed, a
process has not been implemented for monitoring and reporting on key governance
performance indicators leading to enterprise improvements.
The summary of observations identified in the review as well as the assessed COBIT
Maturity Level Ranking and recommendations are provided as follows:


COBIT ME1 - Monitor and Evaluate Performance
Observed Best Practices
1. MCC has established an Enterprise Architecture Steering Committee for monitoring
   IT projects above a $300,000 threshold with senior management involvement and
   utlizes a portfolio tracker to track status of major IT projects.
2. MCC has established performance targets within the business and is monitoring
   those targets on a monthly basis.
Opportunities for Improvement
1. IT Risk Management Plans and Business Cases for IT projects are not consistently
   used to set performance targets.
2. All IT projects and processes had not been regularly monitored by OCIO due to the
   reporting structure of the CIO which had and could continue to give priority to
   projects sponsored by the CFO.
Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 3 – Defined
COBIT Definition - Management communicates and institutes standard monitoring
processes. Educational and training programs for monitoring are implemented. A
formalized knowledge base of historical performance information is developed.
Assessment is still performed at the individual IT process and project level and is not
integrated amongst all processes. Tools for monitoring IT processes and service levels
are defined. Measurements of the contribution of the information services function to the
performance of the organization are defined, using traditional financial and operational
criteria. IT-specific performance measurements, non-financial measurements, strategic
measurements, customer satisfaction measurements and service levels are defined. A
framework is defined for measuring performance.
Recommendations
23. We recommend that the Millennium Challenge Corporation Chief Information Officer
    develop and implement a monitoring process to ensure that all Information
    Technology projects are provided a priority level commensurate with the direction

                                                                                      26
   and goals of the Agency as a whole, not with the goals of individual leaders within
   the Agency.
Suggestions
14. We suggest that the Millennium Challenge Corporation Chief Information Officer
    develop and implement a review process to verify the use of Information Technology
    Risk Management Plans and Business cases to ensure that performance targets are
    established for each Information Technology project.


COBIT ME3 - Ensure Compliance with External Requirements
Observed Best Practices
1. MCC identifies the external laws and requirements that must be complied with on a
   continuous basis.
2. MCC has implemented a process to assist in ensuring compliance with the Federal
   Information Security Management Act (FISMA).
3. MCC follows federal guidelines, the Federal Acquisition Regulations (FAR), for
   acquisitions.
4. Individuals charged with managing projects or contracts are required to have project
   management certificates or certifications for Contracting Officer Technical
   Representative as specified by the Office of Management and Budget (OMB).
Opportunities for Improvement
1. MCC does not have a process in place to review and adjust policies to ensure they
   comply with external requirements.
2. There is no program management office to monitor compliance with external
   requirements.
Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 4 – Managed and Measureable
COBIT Definition - Issues and exposures from external requirements and the need to
ensure compliance at all levels are fully understood. A formal training scheme is in place
to ensure that all staff members are aware of their compliance obligations.
Responsibilities are clear and process ownership is understood. The process includes a
review of the environment to identify external requirements and ongoing changes. There
is a mechanism in place to monitor non-compliance with external requirements, enforce
internal practices and implement corrective action. Non-compliance issues are analyzed
for root causes in a standard manner, with the objective to identify sustainable solutions.
Standardized internal good practices are utilized for specific needs, such as standing
regulations and recurring service contracts.




                                                                                        27
Suggestions
15. We suggest that the Millennium Challenge Corporation Director of Contracting in
    collaboration with the Chief Information Officer develop and implement a process to
    review and adjust policies on a regular basis to ensure they comply with external
    requirements.
   16. We suggest that the Millennium Challenge Corporation Chief Information Officer
       and the MCC Director of Contracting develop and implement a program
       management program to monitor compliance with external requirements.




COBIT ME4 - Provide IT Governance
Observed Best Practices
1. MCC obtains independent assurance of its IT environment through audits and
   reviews by the Office of Inspector General (OIG).
2. The Chief Information Officer regularly reports to senior management regarding the
   progress of IT projects.
3. A governance body (Enterprise Architecture Steering Committee) is in place to
   provide strategic direction to management relative to IT.
4. IT project risk is initially assessed and documented through the use of Exhibit 300s.
5. MCC has developed baseline IT Governance indicators in the IT Strategic Plan, for
   example establishing the Enterprise Architecture Steering Committee, maintaining
   FISMA compliance, and completing and approving risk assessments and OMB
   Exhibit 300s for IT projects.
Opportunities for Improvement
1. Risk assessments for IT projects are inconsistently performed and there is no
   process in place for continuous monitoring of project risk, including the annual
   update of the Exhibit 300, as required by the Office of Management and Budget
   (OMB).
2. Although baseline governance indicators have been developed a process has not
   been implemented for the monitoring and reporting on performance indicators
   leading to enterprise improvements.
Maturity Level Ranking and Definition as Defined by COBIT
Maturity Level: 2 – Repeatable but Intuitive
COBIT Definition - There is awareness of IT governance issues. IT governance activities
and performance indicators, which include IT planning, delivery and monitoring
processes, are under development. Selected IT processes are identified for
improvement based on individuals’ decisions. Management identifies basic IT
governance measurements and assessment methods and techniques; however the
process is not adopted across the organization. Communication on governance
standards and responsibilities is left to the individual. Individuals drive the governance

                                                                                       28
processes within various IT projects and processes. The processes, tools and metrics to
measure IT governance are limited and may not be used to their full capacity due to a
lack of expertise in their functionality.
Recommendations
See Recommendation 13
Suggestions
17. We suggest that the Millennium Challenge Corporation Chief Information Officer
    develop and implement a process for monitoring and reporting on baseline
    performance indicators to assist with continuous process improvement.




                                                                                    29
RISK ASSESSMENT
CONCLUSION
As MCC continues to select and manage its information technology investments, it is
important to have a formal process in place to manage risk. This will assist in ensuring IT
objectives are correlated with business objectives and IT investments are prioritized and
managed to effectively support Agency initiatives. To address control gaps identified in
MCC’s IT governance over its information technology investments, MCC must carry out
corrective actions to address the recommendations made in this report. In addition, MCC
should consider the suggestions identified and determine a course of action for prioritizing
and implementing the suggestions deemed appropriate according to a feasible timetable.




                                                                                         30
                                                                                 APPENDIX I



EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, Millennium Challenge Corporation (MCC) noted
corrections should be made to pages five and ten of the draft report regarding
references to the Chief Information Officer’s (CIO) reporting relationship to MCC’s Chief
Executive Officer. Subsequent to the delivery of the draft Risk Assessment, the Office of
Inspector General (OIG) informed MCC that the CIO’s reporting relationship was no
longer an open recommendation and that the OIG recognized that MCC made a
management decision on this issue. Based on this information, modifications have been
made to the report to reflect the closure of the previous recommendation. We have left
the statement in the report because the risk was identified during our field work and the
closure of the finding was not reported until after delivery of the draft report. Additionally,
since a determination on the effectiveness of the new reporting structure has not been
made, we still view this as a risk.
MCC also noted that a correction should be made regarding the completion date for the
Enterprise Architecture Data Reference Module. In our draft, we reported a completion
date of Spring 2011. Per management’s response, the Data Reference Model will not be
complete until September 2011. As a result, we have updated the report to reflect the
correct completion date.
MCC management concurred with and agreed to take corrective action for each of the
23 recommendations. However, timelines for completion have been provided for only
three of the recommendations. CG agrees with MCC’s management decisions on those
three recommendations, discussed below.
   •   For recommendation 17, management agreed to develop and implement IT
       acquisition instructions to include a methodology for acquisition planning that
       addresses the different components of IT acquisition contracts. The target
       completion to fully close this recommendation is July 31, 2011.
   •   For recommendation 21, management agreed to develop guidelines for
       establishing service level agreements and requirements for including those
       agreements in large and complex information technology contracts. The target
       completion to fully close this recommendation is July 31, 2011.
   •   For recommendation 22, management agreed to develop guidance and
       requirements for periodic contractor performance reviews that will provide for
       early detection of problems and improved service delivery on large and complex
       information technology contracts, including the use of the Contract Performance
       Assessment Rating System.          The target completion to fully close this
       recommendation is July 31, 2011.
For the remaining recommendations, MCC management plans to prepare a Combined
Corrective Action Plan by July 31, 2011. MCC management indicated that the plan will
address the milestones and dates associated with the remaining recommendations.
MCC’s management comments are included in their entirety in Appendix II.


                                                                                            31
SCOPE AND METHODOLOGY
Scope
The risk assessment was conducted in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States. In addition, our work
in support of the risk assessment was guided by Information Technology Governance
Institute’s Control Objectives for Information and related Technology (COBIT) framework
version 4.1. COBIT provides managers, auditors and IT users with a set of generally
accepted measures, indicators, processes and best practices to assist them in
maximizing the benefits derived through the use of IT and developing appropriate IT
governance and control in an organization. It provides good practices for the
management of IT processes in a manageable and logical structure, meeting the
multiple needs of enterprise management by bridging the gaps between business risks,
technical issues, control needs and performance measurement requirements.
In the absence of specific federal guidance solely focused on governance over IT
investments, we believe Information Technology Governance Institute’s COBIT provides
best practices in helping organizations assess their governance controls. However, since
MCC must comply with federal laws and regulations, we mapped COBIT 4.1 to National
Institute of Standards and Technology (NIST) 800-53 Rev 3 controls, where applicable.
See Appendix IV.
We conducted our audit at the Millennium Challenge Corporation (MCC) Headquarters
in Washington, DC, from October 11, 2010, to January 27, 2011. To answer the
assessment objective, we conducted interviews with MCC staff and reviewed
documentation related to IT governance processes and control objectives under
evaluation. Such documentation included the MCC IT Strategic Plan, the September
2010 CIO Brief to the MCC Vice President, the Enterprise Architecture Steering
Committee Charter and meeting minutes, the IT Project Budget, the OCIO 2-Year
Portfolio of IT projects, the OCIO Portfolio Tracking Dashboard, contracts and service
level agreements for service providers, the Contracting Operations Manual (COM), the
Exhibit 300: Capital Asset Plan and Business Case Summary for the MIDAS application,
the current and proposed CIO organizational structure, and the CIO IT Operational
Budget Benchmarking Report. We reviewed laws, regulations, OMB circulars and
memorandums, and other guidance related to the assessment objective. The objective
of this assessment was to determine what MCC’s risks are for selecting, managing, and
controlling its information technology investments. The IT investments reviewed included
MCC Integrated Data Analysis System (known as MIDAS), Integrated Financial and
Contract Management System (IFCMS), Enterprise Content Management (ECM), and
additional support contracts.
We reviewed laws, regulations, OMB circulars and memorandums, and other guidance
related to the assessment objective. The assessment did not include risks with respect
to security and privacy.

Methodology
Our methodology was categorized into three phases: the planning, testing (fieldwork),


                                                                                     32
          and reporting phases. The primary objective of the planning phase was to develop the
          audit program and the work plan that addressed the tasks outlined in the Statement of
          Work. The primary objective of the testing phase was to assist the MCC AIG in
          assessing the risk assessment areas as defined below and complete the risk
          assessment procedures as defined in the audit program. Specifically, we:
              •     Evaluated and tested selected IT processes and control objectives for MCC
                    (described in the Control Objectives for Information and related Technology
                    (COBIT) framework version 4.1);
              •     Interviewed key personnel and obtained and examined documentation related to
                    the IT processes and control objectives under review; and
              •     Assigned a maturity level to each IT process evaluated, which range from non-
                    existent (0) to optimized (5).
          The risk assessment methodology utilized the COBIT version 4.1, which provides a
          mechanism for measuring how well developed management processes are in relation to
          accepted industry standards. The use of COBIT’s maturity model assisted us in
          measuring performance and addressing gaps in capability in assessing the effectiveness
          of MCC’s IT governance practices over its IT investments.
          The key COBIT IT governance areas we focused on are:


IT Governance                                                                                        Standard/Best
                          Definition                                 Importance
Area                                                                                                 Practice


Plan and Organize


Define a Strategic IT     Creating a strategic plan that defines,    Incorporating IT and business   COBIT
Plan                      in co-operation with relevant              management in the translation
                          stakeholders, how IT goals will            of business requirements into   PO1
                          contribute to the enterprise’s strategic   service offerings, and the
                          objectives and related costs and risks     development of strategies to
                                                                     deliver these services in a
                                                                     transparent and effective
                                                                     manner


Define the                Creating and regularly updating a          Being agile in responding to    COBIT
Information               business information model and             requirements, to provide
Architecture (MCC’s       defining the appropriate systems to        reliable and consistent         PO2
enterprise                optimize the use of this information       information and to seamlessly
architecture)                                                        integrate applications into
                                                                     business processes


Define the IT             Establishing transparent, flexible and     Being agile in responding to    COBIT
Processes,                responsive IT organizational               the business strategy while
Organization and          structures and defining and                complying with governance       PO4
Relationships (IT         implementing IT processes with             requirements and providing
governance                owners, and roles and responsibilities     defined and competent points
committees)               integrated into business and decision      of contact


                                                                                                      33
IT Governance                                                                                          Standard/Best
                        Definition                                 Importance
Area                                                                                                   Practice

                        processes


Manage the IT           Establishing effective and efficient IT    Improving IT’s cost-efficiency      COBIT
Investment              investment and portfolio decisions,        and its contribution to business
                        and setting and tracking IT budgets in     profitability with integrated and   PO5
                        line with IT strategy and investment       standardized services that
                        decisions                                  satisfy end-user expectations


Manage Quality          Establishing effective ongoing             Ensuring continuous and             COBIT
                        performance monitoring against             measurable improvement of
                        predefined objectives and                  the quality of IT services          PO8
                        implementing a program for                 delivered.
                        continuous improvement of IT
                        services


Manage Projects         Defining a program and project             Ensuring the delivery of project    COBIT
                        management approach that is applied        results within agreed-upon
                        to IT projects and enables                 time frames, budget and             PO10
                        stakeholder participation in and           quality
                        monitoring of project risks and
                        progress


Acquire and Implement


Acquire and             Ensuring that there is a timely and        Aligning available applications     COBIT
Maintain Application    cost-effective development process         with business requirements,
Software                                                           and doing so in a timely            AI2
                                                                   manner and at a reasonable
                                                                   cost


Acquire and             Providing appropriate platforms for        Acquiring and maintaining an        COBIT
Maintain                the business applications in line with     integrated and standardized IT
Technology              the defined IT architecture and            infrastructure                      AI3
Infrastructure          technology standards


Procure IT              Acquiring and maintaining IT skills        Improving IT’s cost-efficiency      COBIT
Resources               that respond to the IT strategy,           and its contribution to business
                        integrating and standardizing IT           profitability                       AI5
                        infrastructure, and reducing IT
                        procurement risk


Install and Accredit    Testing that applications and              Implementing new or changed         COBIT
Solutions and           infrastructure solutions are fit for the   systems that work without
Changes                 intended purpose and free from             major problems after                AI7
                        errors, and planning releases to           installation



                                                                                                        34
IT Governance                                                                                         Standard/Best
                       Definition                                  Importance
Area                                                                                                  Practice

                       production


Deliver and Support


Define and Manage      Identifying service requirements,           Ensuring the alignment of key      COBIT
Service Levels         agreeing on service levels and              IT services with the business
                       monitoring achievement of service           strategy                           DS1
                       levels


Manage Third-party     Establishing relationships and              Providing satisfactory third-      DS2
Services               bilateral responsibilities with qualified   party services while being
                       third-party service providers and           transparent about benefits,
                       monitoring the service delivery to          costs and risks
                       verify and ensure adherence to
                       agreements


Manage Problems        Recording, tracking and resolving           Ensuring end users’                COBIT
                       operational problems; investigating         satisfaction with service
                       the root cause of all significant           offerings and service levels,      DS10
                       problems; and defining solutions for        and reducing solution and
                       identified operations problems              service delivery defects and
                                                                   rework


Monitor and Evaluate


Monitor and            Monitoring and reporting process            Transparency and                   COBIT
Evaluate IT            metrics and identifying and                 understanding of IT cost,
Performance            implementing performance                    benefits, strategy, policies and   ME1
                       improvement actions                         service levels in accordance
                                                                   with governance requirements


Ensure Compliance      Identifying all applicable laws,            Ensuring compliance with           COBIT
with External          regulations and contracts and the           laws, regulations and
Requirements           corresponding level of IT compliance        contractual requirements           ME3
                       and optimizing IT processes to
                       reduce the risk of non-compliance


Provide IT             Preparing board reports on IT               Integrating IT governance with     COBIT
Governance             strategy, performance and risks, and        corporate governance
                       responding to governance                    objectives                         ME4
                       requirements in line with board
                       directions


         The COBIT maturity model is based on evaluating and rating an organization on maturity
         levels of non-existent (0) to optimized (5).

                                                                                                       35
We performed a process maturity evaluation using the following COBIT maturity levels:

 0     Non-Existent: There is a complete lack of any recognizable processes. The
       organization has not even recognized there is an issue to be addressed.

 1     Initial/Ad hoc: There is evidence that the organization has recognized that
       issues exist and need to be addressed. There are, however, no standardized
       processes, but instead, there are ad hoc approaches that tend to be applied on
       an individual or case-by-case basis. The overall approach to management is
       disorganized.

 2     Repeatable but Intuitive: Processes have developed to the stage where
       similar procedures are followed by different people undertaking the same task.
       There is no formal training or communication of standard procedures, and
       responsibility is left to the individual. There is a high degree of reliance on the
       knowledge of individuals, and therefore, errors are likely.

 3     Defined Process: Procedures have been standardized and documented, and
       communicated through training. It is mandated that these processes should be
       followed; however, it is unlikely that deviations will be detected. The procedures
       themselves are not sophisticated, but are the formalization of existing practices.

 4     Managed and Measureable: Management monitors and measures compliance
       with procedures and takes action where processes appear not to be working
       effectively. Processes are under constant improvement and provide good
       practice. Automation and tools are used in a limited or fragmented way.

 5     Optimized: Processes have been refined to a level of good practice, based on
       the results of continuous improvement and maturity modeling with other
       enterprises. IT is used in an integrated way to automate the workflow, providing
       tools to improve quality and effectiveness, making the enterprise quick to adapt.
The COBIT maturity model for each IT governance area assessed is included in
Appendix III.




                                                                                        36
                                                                              APPENDIX II



MANAGEMENT COMMENTS




April 29, 2011

To: Alvin Brown
Office of Inspector General
Millennium Challenge Corporation

From: Dennis Lauer, CIO /s/
Millennium Challenge Corporation
875 Fifteenth Street NW
Washington, DC 20005

REF: MCC Request for extension and notice of final action memorandum dated 3/25/2011

Subject: MCC Combined Management Response for the MCC's Implementation of Selected
Key Project Controls for the MCC Integrated Data Analysis System (MIDAS) (M-000-11-
002-P) and draft Risk Assessment of MCC's Information Technology (IT) Governance over
its IT Investments (M-000-11-00X-P)

Dear Mr. Brown:

The Millennium Challenge Corporation (MCC) appreciates the opportunity to further address
the audit of MCC's Implementation of Selected Key Project Controls for MIDAS and the
draft Risk Assessment of MCC's Information Technology Governance over its IT
Investments.

Before addressing the specific recommendations in the Risk Assessment, MCC notes that
corrections should be made to pages five and ten of the draft report regarding references to
the Chief Information Officer's (CIO) reporting relationship to MCC's Chief Executive
Officer (CEO). Specifically, these references state that the CIO's dotted line reporting
relationship to the CEO does not reflect the level of importance of IT issues within MCC.
Subsequent to the issuance of this draft Risk Assessment, the Office of Inspector General
(OIG) informed MCC that the CIO's reporting relationship was no longer an open
recommendation and that the OIG recognized that MCC made a management decision on this
issue. The OIG reserved the right to monitor the issue in future IT audits, but the


                                                                                         37
                                                                                  Appendix II


circumstances outlined in the MIDAS and IT governance audits predate the reporting
relationship change implemented by MCC. A copy of the OIG memorandum is attached.

MCC understands and appreciates the important role of proper IT governance to ensure that
IT investments are aligned and prioritized within corporate business objectives and available
corporate resources. Effective management is critical to deliver projects on schedule and
within budget, as well as to assure that projects meet their objective. Considering that MCC
has only operated for seven years, the Agency already has made significant progress toward
establishing effective governance of IT investrnents. Specifically, a few of the steps already
taken to implement IT governance rigor at MCC are:

   1.   Established a comprehensive IT Governance structure including the Enterprise
        Architecture Steering Committee (EASC), a newly established Executive Advisory
        Board (EAB), Integrated Project Teams (IPTs) and working groups for the major IT
        project(s).

   2.   Revised the EASC charter to reflect the new structure.

   3.   Established a charter for the MIDAS Integrated Project Team.

   4.   Established weekly project reviews by the CIO with each project manager.

   5.   Developed two tools (the Executive Level tracker and the PM central task manager)
        to manage budget, schedule and risk for IT investments.

   6.   Established and filled a dedicated Program Manager position to develop and manage
        the Combined Corrective Action Plan (CCAP).

   7.   Awarded a multi-year IT Planning contract to provide the incremental technical
        support required to execute the corrective action plan.

While MCC concurs with the 23 IT Governance recommendations and the 9 MIDAS audit
recommendations, it became apparent that we needed more time to develop a detailed CCAP.
Consistent with the principles emphasized in the recommendations on good governance
thorough advance planning, realistic timeframes, and the identification of requisite resources,
MCC is ensuring that the CCAP itself reflects solid project management. As part of this
effort MCC will review the plan with the EASC, identify resource requirements, and allocate
budgetary and other resources to develop and execute our corrective action plan. The current
budget environment and rational sequencing of the combined 32 recommendations will
require MCC to prioritize and divide into implementation phases the deliverables within the
action plan.

Therefore, MCC will develop a CCAP by July 31, 2011. The CCAP will address the
recommendations contained in MCC'S Implementation of Selected Key Project Controls for
MIDAS (M-000-ll-002-P) and the draft report on the Risk Assessment Of The Millennium
Challenge Corporation's Information Technology Governance Over Its Information
Technology Investments (M-000-ll-00X-P).



                                                                                            38
                                                                                Appendix II


The CCAP will incorporate the recommendations from both documents into a cohesive
approach and ensure the most effective use of MCC's resources. Budgetary projections
indicate a constrained environment for the foreseeable future. As such, this CCAP will focus
on the judicious use of limited funds to achieve the greatest impact toward maturing MCC's
IT governance processes and structure. The basic structure and consolidation objectives of
the MCC CCAP follow below.

The MCC CCAP will be divided into four phases. The first phase is the Systems
Development Life Cycle (SDLC) policy and procedures development and roll-out, and it will
address MIDAS recommendations 1, 5, 6, 7, 8, 9 and IT Governance recommendations 12,
14, 18, 19, 20, 23. The second phase is the planning and establishment of the policies and
procedures for the MCC IT Program Management Office (PMO). This phase will address
MIDAS recommendation 3 and IT Governance recommendations 1, 2, 5, 6, 7, 8, 13, 15, 16,
17, 21, 22. The third phase is the implementation of the PMO and will address MIDAS
recommendation 2, 4 and IT Governance recommendations 9, 10, 11. The fourth phase is the
evaluation and adjustment phase and it will address IT Governance recommendations 3 and
4.

CCAP Phase One:

MIDAS Recommendation No. 1: Develop a detailed, written plan to establish strong project
management capabilities for IT projects.

Management Response: MCC will develop a CCAP to establish project management
capabilities for Information Technology projects by July 31st, 2011.

MIDAS Recommendation No. 5: Develop written policies and procedures to obtain written
approval for relying on a contractor's systems development life cycle (SDLC) methodology.

Management Response: MCC will establish a corporate SDLC policy. The milestones and
dates associated with this deliverable will be addressed in the Combined Action Plan.

MIDAS Recommendation No. 6: Develop written policies and procedures to address key
decision points for IT projects.

Management Response: MCC will develop SDLC procedures to address key decision
points for Information Technology projects. The milestones and dates associated with this
deliverable will be addressed in the Combined Action Plan.

MIDAS Recommendation No. 7: Establish in writing what documentation must be prepared,
updated, and maintained for IT projects.

Management Response: MCC will develop SDLC procedures which will address the
documentation necessary for maintaining IT projects. The milestones and dates associated
with this deliverable will be addressed in the Combined Action Plan.




                                                                                         39
                                                                                          Appendix II


MIDAS Recommendation No. 8: Implement risk management, earned value management,
and requirements management for the MIDAS project before proceeding to the development
phase to build additional functionality for the system.

Management Response: MCC will implement risk management, earned value management
and requirements management for the MIDAS project before proceeding to the development
phase to build additional functionality for the system. The milestones and dates associated
with this deliverable will be addressed in the CCAP. The current systems to manage risk,
earned value, and requirements for the MIDAS project will be adjusted as necessary to meet
the milestones and dates in the CCAP.

MIDAS Recommendation No. 9: Review MCC's IT project management capabilities and
determine whether its weaknesses should be reported, tracked, and monitored as a material
weakness pursuant to the Federal Managers Financial Integrity Act of 1982.

Management Response: MCC will refer this to the Senior Assessment Board (SAB) for a
determination of whether IT project management capabilities should be reported, tracked and
monitored as a material weakness pursuant to the Federal Managers Financial Integrity Act
of 1982. The milestone and date associated with this deliverable will be addressed in the
CCAP.

IT Governance Recommendation No. 12: We recommend that the Millennium Challenge
Corporation Chief Information Officer implement a process to incorporate the following
components into its projects:
   •   A project governance structure that includes the roles, responsibilities, and accountabilities of
       various key players in project management.
   •   Project sponsors assigned for the execution of each project.
   •   Project office and project manager.
   •   Elements such as approving the initiation of phases, communicating to all stakeholders the
       status of projects, establishing an integrated project plan, project quality plan, and defining
       the responsibilities of project team members.
   •   Project risk management through the process of planning, identifying, analyzing, responding
       to, monitoring and controlling risk.
   •   Project change control.
   •   Lessons learned.

Management Response: MCC will incorporate these components into Information
Technology (IT) projects with the implementation of a systems development life cycle. The
milestones and dates associated with this deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 14: We recommend that the Millennium Challenge
Corporation Chief Information Officer finalize and implement the system development life
cycle.

Management Response: MCC's CIO will finalize and implement the SDLC. The milestones
and dates associated with this deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 18: We recommend that the Millennium Challenge


                                                                                                    40
                                                                                 Appendix II


Corporation Chief Information Officer develop and implement a process to ensure end user
testing and evaluation of developed applications.

Management Response: MCC's CIO will develop and implement a process to ensure end
user testing and evaluation of developed applications with the implementation of the systems
development life cycle. The milestones and dates associated with this deliverable will be
addressed in the CCAP.

IT Governance Recommendation No. 19: We recommend that the Millennium Challenge
Corporation Chief Information Officer develop and implement a process to ensure personnel
are trained in the use of developed applications.

Management Response: MCC's CIO will develop and implement a process to ensure
personnel are trained in the use of developed applications with the implementation of the
systems development life cycle. The milestones and dates associated with this deliverable
will be addressed in the CCAP.

IT Governance Recommendation No. 20: We recommend that the Millennium Challenge
Corporation Chief Information Officer document and implement policies and procedures for
data conversion, testing of applications and infrastructure migration.

Management Response: MCC's CIO will document and implement policies and procedures
for data conversion, testing of applications and infrastructure migration with the
implementation of the systems development life cycle. The milestones and dates associated
with this deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 23: We recommend that the Millennium Challenge
Corporation Chief Information Officer develop and implement a monitoring process to
ensure that all IT projects are provided a priority level commensurate with the direction and
goals of the Agency as a whole, not with the goals of individual leaders within the Agency.

Management Response: The MCC's CIO will develop and implement a monitoring process
to ensure that all IT projects are included as part of the Enterprise IT portfolio review
process. The milestones and dates associated with this deliverable will be addressed in the
CCAP.

CCAP Phase Two:

MIDAS Recommendation No. 3: Develop written policies and procedures to plan for,
mitigate, monitor, and report on risks to IT projects.

Management Response: MCC will develop an IT Project Risk Management Policy. The
milestone and date associated with this deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 1: We recommend that the Millennium Challenge
Corporation Chief Information Officer update the information technology strategic plan to
reflect current enterprise strategic goals.


                                                                                          41
                                                                                  Appendix II


 Management Response: MCC's CIO will update the information technology strategic plan
to reflect current enterprise strategic goals. The milestones and dates associated with this
deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 2: We recommend that the Millennium Challenge
Corporation Chief Information Officer develop and implement a formal process for
managing risk and updating the information technology strategic plan accordingly. Risk
management must drive enterprise architecture decisions, providing secure information
system environments for critical applications. The plan should be reviewed at a minimum
annually and when major events occur that have an impact on strategic goals. When updating
the information technology strategic plan the Chief Information Officer should verify
compliance with the Office of Management and Budget Circular No. A-130, Management of
Federal Information Systems, with regard to the capital planning and investment control
process which includes the information resource management strategic plan and the
information technology capital plan which is required to be updated twice yearly.

Management Response: The MCC's CIO will develop and implement a formal process for
managing risk and updating the information technology strategic plan accordingly. The
milestones and dates associated with this deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 5: We recommend that the Millennium Challenge
Corporation Chief of Staff develop and implement a formal process that must be consistently
applied for the Enterprise Architecture Steering Committee to prioritize information
technology enabled-investment programs.

Management Response: The MCC's Chief of Staff (CoS) will develop, implement, and
consistently apply a formal process for the EASC to prioritize information technology-
enabled investment programs. The milestones and dates associated with this deliverable will
be addressed in the CCAP.

IT Governance Recommendation No. 6: We recommend that the Millennium Challenge
Corporation Chief of Staff formally document and implement a process requiring the
Enterprise Architecture Steering Committee to consider risk management when discussing
strategic direction and approval of information technology investments.

Management Response: MCC's CoS will formally document and implement a process
requiring the EASC to consider risk management when discussing strategic direction and
approval of information technology investments. The milestones and dates associated with
this deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 7: We recommend that Millennium Challenge
Corporation Chief Information Officer (1) conduct an analysis to determine whether the
information technology function has sufficient resources to adequately support the business
goals and objectives of the organization and (2) through the organization's budgeting process,
submit a written request for additional resources to address any shortfalls identified in the
analysis.



                                                                                           42
                                                                                  Appendix II


Management Response: Within the context of MCC's overall budgetary constraints and
budgeting process, MCC's CIO will (I) conduct an analysis to determine whether the
information technology function has sufficient resources to adequately support the business
goals and objectives of the organization and (2) through the organization's budgeting process,
submit a written request for additional resources to address any shortfalls identified in the
analysis. The milestones and dates associated with this deliverable will be addressed in the
CCAP.

IT Governance Recommendation No. 13: We recommend that the Millennium Challenge
Corporation Chief Information Officer implement a process to verify that risk management
plans and Exhibit 300 business cases are consistently used, monitored and updated annually
for an IT projects as required.

Management Response: The MCC's CIO will implement a process to verify that risk
management plans and Exhibit 300 business cases are consistently used, monitored and
updated annually for all IT projects as required. The milestones and dates associated with this
deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 15: We recommend that the Millennium Challenge
Corporation Chief Information Officer develop and implement a policy to fully address the
maintenance of software applications.

Management Response: MCC's CIO will develop and implement a policy to fully address
the maintenance of software applications. The milestones and dates associated with this
deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 16: We recommend that the Millennium Challenge
Corporation Chief Information Officer develop and implement a process for ensuring the
integration of software into the current infrastructure is properly planned and executed.

Management Response: MCC's CIO will develop and implement a process for ensuring the
integration of software into the current infrastructure is properly planned and executed. The
milestones and dates associated with this deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 8: We recommend that the Millennium Challenge
Corporation Deputy Chief Financial Officer revise the budget policy and procedures to
account for the change from line item budgeting to project budgeting.

Management Response: MCC's Deputy Chief Financial Officer will revise the budget and
policy procedures to account for the change from the line item budgeting to project budgeting
for Information Technology projects. The milestones and dates associated with this
deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 17: We recommend that the Millennium Challenge
Corporation Director of Contracting develop and implement information technology
acquisition instructions that provide a methodology to evaluate the components of
information technology acquisition contracts.


                                                                                            43
                                                                                 Appendix II


Management Response: The MCC's Managing Director for Contracts and Grant
Management (CGM) will develop and implement IT acquisition instructions to include a
methodology for acquisition planning that addresses the different components of IT
acquisition contracts by July 31, 2011.

IT Governance Recommendation No. 21: We recommend that the Millennium Challenge
Corporation Director of Contracting develop and implement a process to enforce the creation
of service level agreements for all endeavors requiring contract support.

Management Response: MCC's Managing Director for CGM will develop guidelines for
establishing SLAs and requirements for including SLAs in large and complex information
technology contracts by July 31, 2011.

IT Governance Recommendation No. 22: We recommend that the Millennium Challenge
Corporation Director of Contracting develop and implement a process for periodic review
and feedback of performance for all contractors to improve service delivery and support early
detection of potential problems.

Management Response: MCC's Managing Director for CGM will develop guidance and
requirements for periodic contractor performance reviews that will provide for early
detection of problems and improved service delivery on large and complex information
technology contracts, including the use of the Contract Performance Assessment Rating
System (CPARS,) by July 31, 2011.

CCAP Plan Phase Three:

MIDAS Recommendation No. 2: Develop written earned value management policies and
procedures for IT projects, as required.

Management Response: MCC will develop an Earned Value Management policy that is
ANSI-EIA 748A compliant. The milestones and dates associated with this deliverable will be
addressed in the CCAP.

MIDAS Recommendation No .4: Update the Contracts Operating Manual to include
procedures for including risk management and earned value management in contracting
actions, when required.

Management Response: MCC will update the Contracts Operating Manual to include
procedures for including risk management and earned value management in contracting
actions, when required. The milestones and dates associated with this deliverable will be
addressed in the CCAP.

IT Governance Recommendation No. 9: We recommend that the Millennium Challenge
Corporation Chief Information Officer develop a process and implement a tool for
monitoring project plans and work completed to determine earned value, providing an early
warning of performance issues impacting project budgets.




                                                                                          44
                                                                                  Appendix II


Management Response: MCC's CIO will develop a process and implement a tool for
monitoring project plans and work completed to determine earned value, providing an early
warning of performance issues impacting project budgets. The milestones and dates
associated with this deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 10: We recommend that the Millennium Challenge
Corporation Chief Information Officer define quality requirements, criteria, and key
performance indicators for evaluation of quality management for key IT processes.

Management Response: The MCC's CIO will define quality requirements, criteria, and key
performance indicators for evaluation of quality management for key IT processes. The
milestones and dates associated with this deliverable will be addressed in the CCAP.

IT Governance Recommendation No. 11: We recommend that the Millennium Challenge
Corporation Chief Information Officer identify and document standards, procedures, and
practices for key IT processes to guide the Agency in defining and evaluating criteria for
quality management.

Management Response: MCC's CIO will identify and document standards, procedures, and
practices for key IT processes to guide the Agency in defining and evaluating criteria for
quality management. The milestones and dates associated with this deliverable will be
addressed in the CCAP.

CCAP Phase Four:

IT Governance Recommendation No. 3: We recommend that the Millennium Challenge
Corporation Chief Information Officer complete the enterprise information architecture
planning and implementation project as discussed in the Executive Level Notional OCIO 2
Year Portfolio in order to maintain an information architecture that reflects the business
requirements.

Management Response: MCC's CIO will complete the enterprise information architecture
planning and implementation project as discussed in the Executive Level Notional OCIO 2
Year Portfolio in order to maintain an information architecture that reflects the business
requirements. The milestones and dates associated with this deliverable will be addressed in
the CCAP.

IT Governance Recommendation No. 4: We recommend that the Millennium Challenge
Corporation Chief Information Officer develop and implement a project plan for leveraging
data as indicated in the authoritative data source process and methodology in order to provide
business users access to detailed information to aid in analysis and decision making by
June 30th, 2012.

Management Response: MCC's CIO will develop and implement a project plan for
leveraging data as indicated in the authoritative data source process and methodology in
order to provide business users access to detailed information to aid in analysis and decision
making. The milestones and dates associated with this deliverable will be addressed in the
CCAP.


                                                                                           45
                                                                              Appendix II



Finally, there are statements in the draft report on the Risk Assessment that should be
clarified. The document indicates that the Enterprise Architecture Data Reference Model
(DRM) would be complete in the Spring of 2011, whereas the DRM will not actually be
complete until September 2011.

If you have any questions, comments or concerns please feel free to contact me on 202.521.
7257.

Attachments:

CC:    IG/MCC, Lisa Banks
       IG/MCC, Aleta Johnson
       MCC/A&F/FMD, Arlene McDonald




                                                                                       46
                                                                           APPENDIX III




COBIT MATURITY MODEL
MEASURMENT CRITERIA
PO1 Define a Strategic IT Plan
PO 1 Maturity Model
Control over the IT process “Define a Strategic IT Plan” with the business goal of
sustaining or extending the business strategy and governance requirement while
remaining transparent about benefits, costs and risks.
Measurement
0 Non-existent when
IT strategic planning is not performed. There is no management awareness that IT
strategic planning is needed to support business goals.
1 Initial/Ad Hoc when
The need for IT strategic planning is known by IT management. IT planning is performed
on an as-needed basis in response to a specific business requirement. IT strategic
planning is occasionally discussed at IT management meetings. The alignment of
business requirements, applications and technology takes place reactively rather than by
an organization wide strategy. The strategic risk position is identified informally on a
project-by-project basis.
2 Repeatable but Intuitive when
IT strategic planning is shared with business management on an as-needed basis.
Updating of the IT plans occurs in response to requests by management. Strategic
decisions are driven on a project-by-project basis without consistency with an overall
organization strategy. The risks and user benefits of major strategic decisions are
recognized in an intuitive way.
3 Defined when
A policy defines when and how to perform IT strategic planning. IT strategic planning
follows a structured approach that is documented and known to all staff. The IT planning
process is reasonably sound and ensures that appropriate planning is likely to be
performed. However, discretion is given to individual managers with respect to
implementation of the process, and there are no procedures to examine the process.
The overall IT strategy includes a consistent definition of risks that the organization is
willing to take as an innovator or follower. The IT financial, technical and human
resources strategies increasingly influence the acquisition of new products and
technologies. IT strategic planning is discussed at business management meetings.
4 Managed and Measurable when
IT strategic planning is standard practice and exceptions would be noticed by

                                                                                      47
                                                                             APPENDIX III


management. IT strategic planning is a defined management function with senior-level
responsibilities. Management is able to monitor the IT strategic planning process, make
informed decisions based on it and measure its effectiveness. Both short-range and
long-range IT planning occurs and is cascaded down into the organization, with updates
done as needed. The IT strategy and organization-wide strategy are increasingly
becoming more coordinated by addressing business processes and value-added
capabilities and leveraging the use of applications and technologies through business
process re-engineering. There is a well-defined process for determining the usage of
internal and external resources required in system development and operations.
5 Optimized when
IT strategic planning is a documented, living process; is continuously considered in
business goal setting; and results in discernible business value through investments in
IT. Risk and value-added considerations are continuously updated in the IT strategic
planning process. Realistic long-range IT plans are developed and constantly updated to
reflect changing technology and business-related developments. Benchmarking against
well-understood and reliable industry norms takes place and is integrated with the
strategy formulation process. The strategic plan includes how new technology
developments can drive the creation of new business capabilities and improve the
competitive advantage of the organization.



PO2 Define the Information Architecture
PO2 Maturity Model
Control over the IT process “Define the Information Architecture” with the business goal
of being agile in responding to requirements, to provide reliable and consistent
information, and to seamlessly integrate applications into business processes.
Measurement
0 Non-existent when
There is no awareness of the importance of the information architecture for the
organization. The knowledge, expertise and responsibilities necessary to develop this
architecture do not exist in the organization.
1 Initial/Ad Hoc when
Management recognizes the need for an information architecture. Development of some
components of an information architecture is occurring on an ad hoc basis. The
definitions address data, rather than information, and are driven by application software
vendor offerings. There is inconsistent and sporadic communication of the need for an
information architecture.
2 Repeatable but Intuitive when
An information architecture process emerges and similar, though informal and intuitive,
procedures are followed by different individuals within the organization. Staff obtain their
skills in building the information architecture through hands-on experience and repeated
application of techniques. Tactical requirements drive the development of information
architecture components by individual staff members.

                                                                                         48
                                                                           APPENDIX III




3 Defined when
The importance of the information architecture is understood and accepted, and
responsibility for its delivery is assigned and clearly communicated. Related procedures,
tools and techniques, although not sophisticated, have been standardized and
documented and are part of informal training activities. Basic information architecture
policies have been developed, including some strategic requirements, but compliance
with policies, standards and tools is not consistently enforced. A formally defined data
administration function is in place, setting organization-wide standards, and is beginning
to report on the delivery and use of the information architecture. Automated tools are
beginning to be employed, but the processes and rules used are defined by database
software vendor offerings. A formal training plan has been developed, but formalized
training is still based on individual initiatives.
4 Managed and Measurable when
The development and enforcement of the information architecture are fully supported by
formal methods and techniques. Accountability for the performance of the architecture
development process is enforced and success of the information architecture is being
measured. Supporting automated tools are widespread, but are not yet integrated. Basic
metrics have been identified and a measurement system is in place. The information
architecture definition process is proactive and focused on addressing future business
needs. The data administration organization is actively involved in all application
development efforts, to ensure consistency. An automated repository is fully
implemented. More complex data models are being implemented to leverage the
information content of the databases. Executive information systems and decision
support systems are leveraging the available information.
5 Optimized when
The information architecture is consistently enforced at all levels. The value of the
information architecture to the business is continually stressed. IT personnel have the
expertise and skills necessary to develop and maintain a robust and responsive
information architecture that reflects all the business requirements. The information
provided by the information architecture is consistently and extensively applied.
Extensive use is made of industry good practices in the development and maintenance
of the information architecture, including a continuous improvement process. The
strategy for leveraging information through data warehousing and data mining
technologies is defined. The information architecture is continuously improving and takes
into consideration non-traditional information on processes, organizations and systems.



PO4 Define the IT Processes, Organization and Relationships
PO4 Maturity Model
Control over the IT process “Define the IT Processes, Organization and Relationships”
with the business goal of being agile in responding to the business strategy whilst
complying with governance requirements and providing defined and competent points of
contact.



                                                                                       49
                                                                             APPENDIX III




Measurement
0 Non-existent when
The IT organization is not effectively established to focus on the achievement of
business objectives.
1 Initial/Ad Hoc when
IT activities and functions are reactive and inconsistently implemented. IT is involved in
business projects only in later stages. The IT function is considered a support function,
without an overall organization perspective. There is an implicit understanding of the
need for an IT organization; however, roles and responsibilities are neither formalized
nor enforced.
2 Repeatable but Intuitive when
The IT function is organized to respond tactically, but inconsistently, to customer needs
and vendor relationships. The need for a structured organization and vendor
management is communicated, but decisions are still dependent on the knowledge and
skills of key individuals. There is an emergence of common techniques to manage the IT
organization and vendor relationships.
3 Defined when
Defined roles and responsibilities for the IT organization and third parties exist. The IT
organization is developed, documented, communicated and aligned with the IT strategy.
The internal control environment is defined. There is formalization of relationships with
other parties, including steering committees, internal audit and vendor management. The
IT organization is functionally complete. There are definitions of the functions to be
performed by IT personnel and those to be performed by users. Essential IT staffing
requirements and expertise are defined and satisfied. There is a formal definition of
relationships with users and third parties. The division of roles and responsibilities is
defined and implemented.
4 Managed and Measurable when
The IT organization proactively responds to change and includes all roles necessary to
meet business requirements. IT management, process ownership, accountability and
responsibility are defined and balanced. Internal good practices have been applied in the
organization of the IT functions. IT management has the appropriate expertise and skills
to define, implement and monitor the preferred organization and relationships.
Measurable metrics to support business objectives and user-defined critical success
factors (CSFs) are standardized. Skill inventories are available to support project staffing
and professional development. The balance between the skills and resources available
internally and those needed from external organizations is defined and enforced. The IT
organizational structure appropriately reflects the business needs by providing services
aligned with strategic business processes, rather than with isolated technologies.
5 Optimized when
The IT organizational structure is flexible and adaptive. Industry good practices are
deployed. There is extensive use of technology to assist in monitoring the performance
of the IT organization and processes. Technology is leveraged in line to support the

                                                                                         50
                                                                             APPENDIX III


complexity and geographic distribution of the organization. There is a continuous
improvement process in place.



PO5 Managing the IT Investment
PO5 Maturity Model
Control over the IT process “Manage the IT Investment” with the business goal of
continuously and demonstrably improving IT’s cost-efficiency and its contribution to
business profitability with integrated and standardized services that satisfy end-user
expectations.
Measurement
0 Non-existent when
There is no awareness of the importance of IT investment selection and budgeting.
There is no tracking or monitoring of IT investments and expenditures.
1 Initial/Ad Hoc when
The organization recognizes the need for managing the IT investment, but this need is
communicated inconsistently. Allocation of responsibility for IT investment selection and
budget development is done on an ad hoc basis. Isolated implementations of IT
investment selection and budgeting occur, with informal documentation. IT investments
are justified on an ad hoc basis. Reactive and operationally focused budgeting decisions
occur.
2 Repeatable but Intuitive when
There is an implicit understanding of the need for IT investment selection and budgeting.
The need for a selection and budgeting process is communicated. Compliance is
dependent on the initiative of individuals in the organization. There is an emergence of
common techniques to develop components of the IT budget. Reactive and tactical
budgeting decisions occur.
3 Defined when
Policies and processes for investment and budgeting are defined, documented and
communicated, and cover key business and technology issues. The IT budget is aligned
with the strategic IT and business plans. The budgeting and IT investment selection
processes are formalized, documented and communicated. Formal training is emerging
but is still based primarily on individual initiatives. Formal approval of IT investment
selections and budgets is taking place. IT staff members have the expertise and skills
necessary to develop the IT budget and recommend appropriate IT investments.
4 Managed and Measurable when
Responsibility and accountability for investment selection and budgeting are assigned to
a specific individual. Budget variances are identified and resolved. Formal costing
analysis is performed, covering direct and indirect costs of existing operations, as well as
proposed investments, considering all costs over a total life cycle. A proactive and
standardized process for budgeting is used. The impact of shifting in development and
operating costs from hardware and software to systems integration and IT human

                                                                                         51
                                                                             APPENDIX III


resources is recognized in the investment plans. Benefits and returns are calculated in
financial and non-financial terms.
5 Optimized when
Industry good practices are used to benchmark costs and identify approaches to
increase the effectiveness of investments. Analysis of technological developments is
used in the investment selection and budgeting process. The investment management
process is continuously improved based on lessons learned from the analysis of actual
investment performance. Investment decisions incorporate price/performance
improvement trends. Funding alternatives are formally investigated and evaluated within
the context of the organization’s existing capital structure, using formal evaluation
methods. There is proactive identification of variances. An analysis of the long-term cost
and benefits of the total life cycle is incorporated in the investment decisions.


PO8 Manage Quality
PO8 Maturity Model
Control over the IT process “Manage Quality” with the business goal of ensuring
continuous and measurable improvement of the quality of IT services delivered.
Measurement
0 Non-existent when
The organization lacks a QMS planning process and a system development life cycle
(SDLC) methodology. Senior management and IT staff members do not recognize that a
quality program is necessary. Projects and operations are never reviewed for quality.
1 Initial/Ad Hoc when
There is a management awareness of the need for a QMS. The QMS is driven by
individuals where it takes place. Management makes informal judgments on quality.
2 Repeatable but Intuitive when
A program is being established to define and monitor QMS activities within IT. QMS
activities that do occur are focused on IT project- and process-oriented initiatives, not on
organization-wide processes.
3 Defined when
A defined QMS process is communicated throughout the enterprise by management and
involves IT and end-user management. An education and training program is emerging
to teach all levels of the organization about quality. Basic quality expectations are
defined and are shared amongst projects and within the IT organization. Common tools
and practices for quality management are emerging. Quality satisfaction surveys are
planned and occasionally conducted.
4 Managed and Measurable when
The QMS is addressed in all processes, including processes with reliance on third
parties. A standardized knowledge base is being established for quality metrics. Cost-
benefit analysis methods are used to justify QMS initiatives. Benchmarking against the

                                                                                         52
                                                                             APPENDIX III


industry and competitors is emerging. An education and training program is instituted to
teach all levels of the organization about quality. Tools and practices are being
standardized, and root cause analysis is periodically applied. Quality satisfaction surveys
are consistently conducted. A standardized program for measuring quality is in place
and well structured. IT management is building a knowledge base for quality metrics.
5 Optimized when
The QMS is integrated and enforced in all IT activities. QMS processes are flexible and
adaptable to changes in the IT environment. The knowledge base for quality metrics is
enhanced with external good practices. Benchmarking against external standards is
routinely performed. Quality satisfaction surveying is an ongoing process and leads to
root cause analysis and improvement actions. There is formal assurance on the level of
the quality management process.



PO10 Manage Projects
PO10 Maturity Model
Control over the IT process “Manage Projects” with the business goal of ensuring the
delivery of project results within agreed-upon time frames, budget and quality.
Measurement
0 Non-existent when
Project management techniques are not used and the organization does not consider
business impacts associated with project mismanagement and development project
failures.
1 Initial/Ad Hoc when
The use of project management techniques and approaches within IT is a decision left to
individual IT managers. There is a lack of management commitment to project
ownership and project management. Critical decisions on project management are made
without user management or customer input. There is little or no customer and user
involvement in defining IT projects. There is no clear organization within IT for the
management of projects. Roles and responsibilities for the management of projects are
not defined. Projects, schedules and milestones are poorly defined, if at all. Project staff
time and expenses are not tracked and compared to budgets.
2 Repeatable but Intuitive when
Senior management gains and communicates an awareness of the need for IT project
management. The organization is in the process of developing and utilizing some
techniques and methods from project to project. IT projects have informally defined
business and technical objectives. There is limited stakeholder involvement in IT project
management. Initial guidelines are developed for many aspects of project management.
Application of project management guidelines is left to the discretion of the individual
project manager.
3 Defined when
The IT project management process and methodology are established and

                                                                                         53
                                                                              APPENDIX III


communicated. IT projects are defined with appropriate business and technical
objectives. Senior IT and business management are beginning to be committed and
involved in the management of IT projects. A project management office is established
within IT, with initial roles and responsibilities defined. IT projects are monitored, with
defined and updated milestones, schedules, budget and performance measurements.
Project management training is available and is primarily a result of individual staff
initiatives. QA procedures and post-system implementation activities are defined, but are
not broadly applied by IT managers. Projects are beginning to be managed as portfolios.
4 Managed and Measurable when
Management requires formal and standardized project metrics and lessons learned to be
reviewed following project completion. Project management is measured and evaluated
throughout the organization and not just within IT. Enhancements to the project
management process are formalized and communicated with project team members
trained on enhancements. IT management implements a project organization structure
with documented roles, responsibilities and staff performance criteria. Criteria for
evaluating success at each milestone are established. Value and risk are measured and
managed prior to, during and after the completion of projects. Projects increasingly
address organization goals, rather than only IT-specific ones. There is strong and active
project support from senior management sponsors as well as stakeholders. Relevant
project management training is planned for staff in the project management office and
across the IT function.
5 Optimized when
A proven, full life cycle project and program methodology is implemented, enforced and
integrated into the culture of the entire organization. An ongoing initiative to identify and
institutionalize best project management practices is implemented. An IT strategy for
sourcing development and operational projects is defined and implemented. An
integrated project management office is responsible for projects and programs from
inception to post-implementation. Organization-wide planning of programs and projects
ensures that user and IT resources are best utilized to support strategic initiatives.




                                                                                          54
                                                                            APPENDIX III




AI2 Acquire and Maintain Application Software
AI2 Maturity Model
Control over the IT process “Acquire and Maintain Application Software” with the
business goal of aligning available applications with business requirements, and doing
so in a timely manner and at a reasonable cost.
Measurement
0 Non-existent when
There is no process for designing and specifying applications. Typically, applications are
obtained based on vendor-driven offerings, brand recognition or IT staff familiarity with
specific products, with little or no consideration of actual requirements.
1 Initial/Ad Hoc when
There is an awareness that a process for acquiring and maintaining applications is
required. Approaches to acquiring and maintaining application software vary from project
to project. Some individual solutions to particular business requirements are likely to
have been acquired independently, resulting in inefficiencies with maintenance and
support.
2 Repeatable but Intuitive when
There are different, but similar, processes for acquiring and maintaining applications
based on the expertise within the IT function. The success rate with applications
depends greatly on the in-house skills and experience levels within IT. Maintenance is
usually problematic and suffers when internal knowledge is lost from the organization.
There is little consideration of application security and availability in the design or
acquisition of application software.
3 Defined when
A clear, defined and generally understood process exists for the acquisition and
maintenance of application software. This process is aligned with IT and business
strategy. An attempt is made to apply the documented processes consistently across
different applications and projects. The methodologies are generally inflexible and
difficult to apply in all cases, so steps are likely to be bypassed. Maintenance activities
are planned, scheduled and coordinated.
4 Managed and Measurable when
There is a formal and well-understood methodology that includes a design and
specification process, criteria for acquisition, a process for testing and requirements for
documentation. Documented and agreed-upon approval mechanisms exist to ensure
that all steps are followed and exceptions are authorized. Practices and procedures
evolve and are well suited to the organization, used by all staff and applicable to most
application requirements.
5 Optimized when
Application software acquisition and maintenance practices are aligned with the defined


                                                                                        55
                                                                           APPENDIX III


process. The approach is component based, with predefined, standardized applications
matched to business needs. The approach is enterprise wide. The acquisition and
maintenance methodology is well advanced and enables rapid deployment, allowing for
high responsiveness and flexibility in responding to changing business requirements.
The application software acquisition and implementation methodology is subjected to
continuous improvement and is supported by internal and external knowledge databases
containing reference materials and good practices. The methodology creates
documentation in a predefined structure that makes production and maintenance
efficient.



AI3 Acquire and Maintain Technology Infrastructure
AI3 Maturity Model
Control over the IT process “Acquire and Maintain Technology Infrastructure” with the
business goal of acquiring and maintaining an integrated and standardized IT
infrastructure.
Measurement
0 Non-existent when
Managing the technology infrastructure is not recognized as a sufficiently important topic
to be addressed.
1 Initial/Ad Hoc when
There are changes made to infrastructure for every new application, without any overall
plan. Although there is an awareness that the IT infrastructure is important, there is no
consistent overall approach. Maintenance activity reacts to short-term needs. The
production environment is the test environment.
2 Repeatable but Intuitive when
There is a consistency amongst tactical approaches when acquiring and maintaining the
IT infrastructure. Acquisition and maintenance of IT infrastructure are not based on any
defined strategy and do not consider the needs of the business applications that must be
supported. There is an understanding that the IT infrastructure is important, supported
by some formal practices. Some maintenance is scheduled, but it is not fully scheduled
and coordinated. For some environments, a separate test environment exists.
3 Defined when
A clear, defined and generally understood process exists for acquiring and maintaining
IT infrastructure. The process supports the needs of critical business applications and is
aligned to IT and business strategy, but it is not consistently applied. Maintenance is
planned, scheduled and coordinated. There are separate environments for test and
production.
4 Managed and Measurable when
The acquisition and maintenance process for technology infrastructure has developed to
the point where it works well for most situations, is followed consistently and is focused
on reusability. The IT infrastructure adequately supports the business applications. The

                                                                                       56
                                                                           APPENDIX III


process is well organized and proactive. The cost and lead time to achieve the expected
level of scalability, flexibility and integration are partially optimized.
5 Optimized when
The acquisition and maintenance process for technology infrastructure is proactive and
closely aligned with critical business applications and the technology architecture. Good
practices regarding technology solutions are followed, and the organization is aware of
the latest platform developments and management tools. Costs are reduced by
rationalizing and standardizing infrastructure components and by using automation. A
high level of technical awareness can identify optimum ways to proactively improve
performance, including consideration of outsourcing options. The IT infrastructure is
seen as the key enabler to leveraging the use of IT.



AI5 Procure IT Resources
AI5 Maturity Model
Control over the IT process “Procure IT Resources” with the business goal of improving
IT’s cost-efficiency and its contribution to business profitability.
Measurement
0 Non-existent when
There is no defined IT resource procurement process in place. The organization does
not recognize the need for clear procurement policies and procedures to ensure that all
IT resources are available in a timely and cost-efficient manner.
1 Initial/Ad Hoc when
The organization recognizes the need to have documented policies and procedures that
link IT acquisition to the business organization’s overall procurement process. Contracts
for the acquisition of IT resources are developed and managed by project managers and
other individuals exercising their professional judgment rather than as a result of formal
procedures and policies. There is only an ad hoc relationship between corporate
acquisition and contract management processes and IT. Contracts for acquisition are
managed at the conclusion of projects rather than on a continuous basis.
2 Repeatable but Intuitive when
There is organizational awareness of the need to have basic policies and procedures for
IT acquisition. Policies and procedures are partially integrated with the business
organization’s overall procurement process. Procurement processes are mostly utilized
for large and highly visible projects. Responsibilities and accountabilities for IT
procurement and contract management are determined by the individual contract
manager’s experience. The importance of supplier management and relationship
management is recognized; however, it is addressed based on individual initiative.
Contract processes are mostly utilized by large or highly visible projects.
3 Defined when
Management institutes policies and procedures for IT acquisition. Policies and
procedures are guided by the business organization’s overall procurement process. IT

                                                                                       57
                                                                             APPENDIX III


acquisition is largely integrated with overall business procurement systems. IT standards
for the acquisition of IT resources exist. Suppliers of IT resources are integrated into the
organization’s project management mechanisms from a contract management
perspective. IT management communicates the need for appropriate acquisitions and
contract management throughout the IT function.
4 Managed and Measurable when
IT acquisition is fully integrated with overall business procurement systems. IT standards
for the acquisition of IT resources are used for all procurements. Measurements on
contract and procurement management are taken relevant to the business cases for IT
acquisition. Reporting on IT acquisition activity that supports business objectives is
available. Management is usually aware of exceptions to the policies and procedures for
IT acquisition. Strategic management of relationships is developing. IT management
enforces the use of the acquisition and contract management process for all acquisitions
by reviewing performance measurement.
5 Optimized when
Management institutes resources’ procurement thorough processes for IT acquisition.
Management enforces compliance with policies and procedures for IT acquisition.
Measurements on contract and procurement management are taken that are relevant to
the business cases for IT acquisitions. Good relationships are established over time with
most suppliers and partners, and the quality of relationships is measured and monitored.
Relationships are managed strategically. IT standards, policies and procedures for the
acquisition of IT resources are managed strategically and respond to measurement of
the process. IT management communicates the strategic importance of appropriate
acquisition and contract management throughout the IT function.



AI7 Install and Accredit Solutions and Changes
AI7 Maturity Model
Control over the IT process “Install and Accredit Solutions and changes” with the
business goal of implementing new or changed systems that work without major
problems after installation.
Measurement
0 Non-existent when
There is a complete lack of formal installation or accreditation processes, and neither
senior management nor IT staff members recognize the need to verify that solutions are
fit for the intended purpose.
1 Initial/Ad Hoc when
There is an awareness of the need to verify and confirm that implemented solutions
serve the intended purpose. Testing is performed for some projects, but the initiative for
testing is left to the individual project teams, and the approaches taken vary. Formal
accreditation and sign-off are rare or non-existent.




                                                                                         58
                                                                             APPENDIX III


2 Repeatable but Intuitive when
There is some consistency amongst the testing and accreditation approaches, but
typically they are not based on any methodology. The individual development teams
normally decide the testing approach, and there is usually an absence of integration
testing. There is an informal approval process.
3 Defined when
A formal methodology relating to installation, migration, conversion and acceptance is in
place. IT installation and accreditation processes are integrated into the system life cycle
and automated to some extent. Training, testing and transition to production status and
accreditation are likely to vary from the defined process, based on individual decisions.
The quality of systems entering production is inconsistent, with new systems often
generating a significant level of post-implementation problems.
4 Managed and Measurable when
The procedures are formalized and developed to be well organized and practical with
defined test environments and accreditation procedures. In practice, all major changes
to systems follow this formalized approach. Evaluation of meeting user requirements is
standardized and measurable, producing metrics that can be effectively reviewed and
analyzed by management. The quality of systems entering production is satisfactory to
management even with reasonable levels of post-implementation problems. Automation
of the process is ad hoc and project-dependent. Management may be satisfied with the
current level of efficiency despite the lack of post-implementation evaluation. The test
system adequately reflects the live environment. Stress testing for new systems and
regression testing for existing systems are applied for major projects.
5 Optimized when
The installation and accreditation processes have been refined to a level of good
practice, based on the results of continuous improvement and refinement. IT installation
and accreditation processes are fully integrated into the system life cycle and automated
when appropriate, facilitating the most efficient training, testing and transition to
production status of new systems. Well-developed test environments, problem registers
and fault resolution processes ensure efficient and effective transition to the production
environment. Accreditation usually takes place with no rework, and post-implementation
problems are normally limited to minor corrections. Post-implementation reviews are
standardized, with lessons learned channeled back into the process to ensure
continuous quality improvement. Stress testing for new systems and regression testing
for modified systems are consistently applied.




                                                                                         59
                                                                             APPENDIX III



DS1 Define and Manage Service Levels
DS1 Maturity Model
Control over the IT process “Define and Manage Service Levels” with the business goal
of ensuring the alignment of key IT services with the business strategy.
Measurement
0 Non-existent when
Management has not recognized the need for a process for defining service levels.
Accountabilities and responsibilities for monitoring them are not assigned.
1 Initial/Ad Hoc when
There is awareness of the need to manage service levels, but the process is informal
and reactive. The responsibility and accountability for defining and managing services
are not defined. If performance measurements exist, they are qualitative only with
imprecisely defined goals. Reporting is informal, infrequent and inconsistent.
2 Repeatable but Intuitive when
There are agreed-upon service levels, but they are informal and not reviewed. Service
level reporting is incomplete and may be irrelevant or misleading for customers. Service
level reporting is dependent on the skills and initiative of individual managers. A service
level co-coordinator is appointed with defined responsibilities, but limited authority. If a
process for compliance to SLAs exists, it is voluntary and not enforced.
3 Defined when
Responsibilities are well defined, but with discretionary authority. The SLA development
process is in place with checkpoints for reassessing service levels and customer
satisfaction. Services and service levels are defined, documented and agreed-upon
using a standard process. Service level shortfalls are identified, but procedures on how
to resolve shortfalls are informal. There is a clear linkage between expected service level
achievement and the funding provided. Service levels are agreed to, but they may not
address business needs.
4 Managed and Measurable when
Service levels are increasingly defined in the system requirements definition phase and
incorporated into the design of the application and operational environments. Customer
satisfaction is routinely measured and assessed. Performance measures reflect
customer needs, rather than IT goals. The measures for assessing service levels are
becoming standardized and reflect industry norms. The criteria for defining service levels
are based on business criticality and include availability, reliability, performance, growth
capacity, user support, continuity planning and security considerations. Root cause
analysis is routinely performed when service levels are not met. The reporting process
for monitoring service levels is becoming increasingly automated. Operational and
financial risks associated with not meeting agreed-upon service levels are defined and
clearly understood. A formal system of measurement is instituted and maintained.




                                                                                         60
                                                                             APPENDIX III


5 Optimized when
Service levels are continuously re-evaluated to ensure alignment of IT and business
objectives, whilst taking advantage of technology, including the cost-benefit ratio. All
service level management processes are subject to continuous improvement. Customer
satisfaction levels are continuously monitored and managed. Expected service levels
reflect strategic goals of business units and are evaluated against industry norms. IT
management has the resources and accountability needed to meet service level targets,
and compensation is structured to provide incentives for meeting these targets. Senior
management monitors performance metrics as part of a continuous improvement
process.



DS2 Manage Third-party Services
DS2 Maturity Model
Control over the IT process “Manage Third-party Services” with the business goal of
providing satisfactory third-party services whilst being transparent about benefits, costs
and risks.
Measurement
0 Non-existent when
Responsibilities and accountabilities are not defined. There are no formal policies and
procedures regarding contracting with third parties. Third-party services are neither
approved nor reviewed by management. There are no measurement activities and no
reporting by third parties. In the absence of a contractual obligation for reporting, senior
management is not aware of the quality of the service delivered.
1 Initial/Ad Hoc when
Management is aware of the need to have documented policies and procedures for
third-party management, including signed contracts. There are no standard terms of
agreement with service providers. Measurement of the services provided is informal and
reactive. Practices are dependent on the experience (e.g., on demand) of the individual
and the supplier.
2 Repeatable but Intuitive when
The process for overseeing third-party service providers, associated risks and the
delivery of services is informal. A signed, pro forma contract is used with standard
vendor terms and conditions (e.g., the description of services to be provided). Reports
on the services provided are available, but do not support business objectives.
3 Defined when
Well-documented procedures are in place to govern third-party services, with clear
processes for vetting and negotiating with vendors. When an agreement for the provision
of services is made, the relationship with the third party is purely a contractual one. The
nature of the services to be provided is detailed in the contract and includes legal,
operational and control requirements. The responsibility for oversight of third-party
services is assigned. Contractual terms are based on standardized templates. The
business risk associated with the third-party services is assessed and reported.

                                                                                         61
                                                                           APPENDIX III




4 Managed and Measurable when
Formal and standardized criteria are established for defining the terms of engagement,
including scope of work, services/deliverables to be provided, assumptions, schedule,
costs, billing arrangements and responsibilities. Responsibilities for contract and vendor
management are assigned. Vendor qualifications, risks and capabilities are verified on a
continual basis. Service requirements are defined and linked to business objectives. A
process exists to review service performance against contractual terms, providing input
to assess current and future third-party services. Transfer pricing models are used in the
procurement process. All parties involved are aware of service, cost and milestone
expectations. Agreed-upon goals and metrics for the oversight of service providers exist.
5 Optimized when
Contracts signed with third parties are reviewed periodically at predefined intervals. The
responsibility for managing suppliers and the quality of the services provided is
assigned. Evidence of contract compliance to operational, legal and control provisions is
monitored, and corrective action is enforced. The third party is subject to independent
periodic review, and feedback on performance is provided and used to improve service
delivery. Measurements vary in response to changing business conditions. Measures
support early detection of potential problems with third-party services. Comprehensive,
defined reporting of service level achievement is linked to the third-party compensation.
Management adjusts the process of third-party service acquisition and monitoring based
on the measurers.



DS10 Manage Problems
DS10 Maturity Model
Control over the IT process “Manage Problems” with the business goal of ensuring end
users’ satisfaction with service offerings and service levels, and reducing solution and
service delivery defects and rework.
Measurement
0 Non-existent when
There is no awareness of the need for managing problems, as there is no differentiation
of problems and incidents. Therefore, there is no attempt made to identify the root cause
of incidents.
1 Initial/Ad Hoc when
Personnel recognize the need to manage problems and resolve underlying causes. Key
knowledgeable personnel provide some assistance with problems relating to their area
of expertise, but the responsibility for problem management is not assigned. Information
is not shared, resulting in additional problem creation and loss of productive time while
searching for answers.
2 Repeatable but Intuitive when
There is a wide awareness of the need for and benefits of managing IT-related problems

                                                                                       62
                                                                          APPENDIX III


within both the business units and information services function. The resolution process
is evolved to a point where a few key individuals are responsible for identifying and
resolving problems. Information is shared amongst staff in an informal and reactive way.
The service level to the user community varies and is hampered by insufficient,
structured knowledge available to the problem manager.
3 Defined when
The need for an effective integrated problem management system is accepted and
evidenced by management support, and budgets for the staffing and training are
available. Problem resolution and escalation processes have been standardized. The
recording and tracking of problems and their resolutions are fragmented within the
response team, using the available tools without centralization. Deviations from
established norms or standards are likely to be undetected. Information is shared among
staff in a proactive and formal manner. Management review of incidents and analysis of
problem identification and resolution are limited and informal.
4 Managed and Measurable when
The problem management process is understood at all levels within the organization.
Responsibilities and ownership are clear and established. Methods and procedures are
documented, communicated and measured for effectiveness. The majority of problems
are identified, recorded and reported, and resolution is initiated. Knowledge and
expertise are cultivated, maintained and developed to higher levels, as the function is
viewed as an asset and major contributor to the achievement of IT objectives and
improvement of IT services. Problem management is well integrated with interrelated
processes, such as incident, change, availability and configuration management, and
assists customers in managing data, facilities and operations. Goals and metrics have
been agreed upon for the problem management process.
5 Optimized when
The problem management process is evolved into a forward-looking and proactive one,
contributing to the IT objectives. Problems are anticipated and prevented. Knowledge
regarding patterns of past and future problems is maintained through regular contacts
with vendors and experts. The recording, reporting and analysis of problems and
resolutions are automated and fully integrated with configuration data management.
Goals are measured consistently. Most systems have been equipped with automatic
detection and warning mechanisms, which are continuously tracked and evaluated. The
problem management process is analyzed for continuous improvement based on
analysis of measures and is reported to stakeholders.




                                                                                     63
                                                                           APPENDIX III



ME1 Monitor and Evaluate IT Performance
ME1 Maturity Model
Control over the IT process “Monitor and Evaluate IT Performance” with the business
goal of transparency and understanding of IT cost, benefits, strategy, policies and
service levels in accordance with governance requirements.
Measurement
0 Non-existent when
The organization has no monitoring process implemented. IT does not independently
perform monitoring of projects or processes. Useful, timely and accurate reports are not
available. The need for clearly understood process objectives is not recognized.
1 Initial/Ad Hoc when
Management recognizes a need to collect and assess information about monitoring
processes. Standard collection and assessment processes have not been identified.
Monitoring is implemented and metrics are chosen on a case-by-case basis, according
to the needs of specific IT projects and processes. Monitoring is generally implemented
reactively to an incident that has caused some loss or embarrassment to the
organization. The accounting function monitors basic financial measures for IT.
2 Repeatable but Intuitive when
Basic measurements to be monitored are identified. Collection and assessment methods
and techniques exist, but the processes are not adopted across the entire organization.
Interpretation of monitoring results is based on the expertise of key individuals. Limited
tools are chosen and implemented for gathering information, but the gathering is not
based on a planned approach.
3 Defined when
Management communicates and institutes standard monitoring processes. Educational
and training programs for monitoring are implemented. A formalized knowledge base of
historical performance information is developed. Assessment is still performed at the
individual IT process and project level and is not integrated amongst all processes. Tools
for monitoring IT processes and service levels are defined. Measurements of the
contribution of the information services function to the performance of the organization
are defined, using traditional financial and operational criteria. IT-specific performance
measurements, non-financial measurements, strategic measurements, customer
satisfaction measurements and service levels are defined. A framework is defined for
measuring performance.
4 Managed and Measurable when
Management defines the tolerances under which processes must operate. Reporting of
monitoring results is being standardized and normalized. There is integration of metrics
across all IT projects and processes. The IT organization’s management reporting
systems are formalized. Automated tools are integrated and leveraged organization-wide
to collect and monitor operational information on applications, systems and processes.
Management is able to evaluate performance based on agreed-upon criteria approved

                                                                                       64
                                                                          APPENDIX III


by stakeholders. Measurements of the IT function align with organization-wide goals.
5 Optimized when
A continuous quality improvement process is developed for updating organization-wide
monitoring standards and policies and incorporating industry good practices. All
monitoring processes are optimized and support organization-wide objectives. Business
driven metrics are routinely used to measure performance and are integrated into
strategic assessment frameworks, such as the IT balanced scorecard. Process
monitoring and ongoing redesign are consistent with organization-wide business process
improvement plans. Benchmarking against industry and key competitors becomes
formalized, with well-understood comparison criteria.



ME3 Ensure Compliance with External Requirements
ME3 Maturity Model
Control over the IT process “Ensure Compliance with External Requirements” with the
business goal of ensuring compliance with laws, regulations and contractual
requirements.
Measurement
0 Non-existent when
There is little awareness of external requirements that affect IT, with no process
regarding compliance with regulatory, legal and contractual requirements.
1 Initial/Ad Hoc when
There is awareness of regulatory, contractual and legal compliance requirements
impacting the organization. Informal processes are followed to maintain compliance, but
only as the need arises in new projects or in response to audits or reviews.
2 Repeatable but Intuitive when
There is an understanding of the need to comply with external requirements, and the
need is communicated. Where compliance is a recurring requirement, as in financial
regulations or privacy legislation, individual compliance procedures have been
developed and are followed on a year-to-year basis. There is, however, no standard
approach. There is high reliance on the knowledge and responsibility of individuals, and
errors are likely. There is informal training regarding external requirements and
compliance issues.
3 Defined when
Policies, plans and procedures are developed, documented and communicated to
ensure compliance with regulations and contractual and legal obligations, but some may
not always be followed, and some may be out of date or impractical to implement. There
is little monitoring performed and there are compliance requirements that have not been
addressed. Training is provided in external legal and regulatory requirements affecting
the organization and the defined compliance processes. Standard pro forma contracts
and legal processes exist to minimize the risks associated with contractual liability.


                                                                                       65
                                                                               APPENDIX III


4 Managed and Measurable when
Issues and exposures from external requirements and the need to ensure compliance at
all levels are fully understood. A formal training scheme is in place to ensure that all staff
members are aware of their compliance obligations. Responsibilities are clear and
process ownership is understood. The process includes a review of the environment to
identify external requirements and ongoing changes. There is a mechanism in place to
monitor non-compliance with external requirements, enforce internal practices and
implement corrective action. Non-compliance issues are analyzed for root causes in a
standard manner, with the objective to identify sustainable solutions. Standardized
internal good practices are utilized for specific needs, such as standing regulations and
recurring service contracts.
5 Optimized when
A well-organized, efficient and enforced process is in place for complying with external
requirements, based on a single central function that provides guidance and co-
ordination to the whole organization. Extensive knowledge of the applicable external
requirements, including their future trends and anticipated changes, and the need for
new solutions exist. The organization takes part in external discussions with regulatory
and industry groups to understand and influence external requirements affecting them.
Good practices are developed ensuring efficient compliance with external requirements,
resulting in very few cases of compliance exceptions. A central, organization-wide
tracking system exists, enabling management to document the workflow and to measure
and improve the quality and effectiveness of the compliance monitoring process. An
external requirements self-assessment process is implemented and refined to a level of
good practice. The organization’s management style and culture relating to compliance
are sufficiently strong, and processes are developed well enough for training to be
limited to new personnel and whenever there is a significant change.



ME4 Provide IT Governance
ME4 Maturity Model
Control over the IT process “Provide IT Governance” with the business goal of
integrating IT governance with corporate governance objectives and complying with laws
and regulations.
Measurement
0 Non-existent when
There is a complete lack of any recognizable IT governance process. The organization
does not even recognize that there is an issue to be addressed; hence, there is no
communication about the issue.
1 Initial/Ad Hoc when
There is recognition that IT governance issues exist and need to be addressed. There
are ad hoc approaches applied on an individual or case-by-case basis. Management’s
approach is reactive, and there is only sporadic, inconsistent communication on issues
and approaches to address them. Management has only an approximate indication of
how IT contributes to business performance. Management only reactively responds to

                                                                                           66
                                                                           APPENDIX III


an incident that has caused some loss or embarrassment to the organization.
2 Repeatable but Intuitive when
There is awareness of IT governance issues. IT governance activities and performance
indicators, which include IT planning, delivery and monitoring processes, are under
development. Selected IT processes are identified for improvement based on individuals’
decisions. Management identifies basic IT governance measurements and assessment
methods and techniques; however, the process is not adopted across the organization.
Communication on governance standards and responsibilities is left to the individual.
Individuals drive the governance processes within various IT projects and processes.
The processes, tools and metrics to measure IT governance are limited and may not be
used to their full capacity due to a lack of expertise in their functionality.
3 Defined when
The importance of and need for IT governance are understood by management and
communicated to the organization. A baseline set of IT governance indicators is
developed where linkages between outcome measures and performance indicators are
defined and documented. Procedures are standardized and documented. Management
communicates standardized procedures, and training is established. Tools are identified
to assist with overseeing IT governance. Dashboards are defined as part of the IT
balanced business scorecard. However, it is left to the individual to get training, follow
the standards and apply them. Processes may be monitored, but deviations, while
mostly being acted upon by individual initiative, are unlikely to be detected by
management.
4 Managed and Measurable when
There is full understanding of IT governance issues at all levels. There is a clear
understanding of who the customer is, and responsibilities are defined and monitored
through SLAs. Responsibilities are clear and process ownership is established. IT
processes and IT governance are aligned with and integrated into the business and the
IT strategy. Improvement in IT processes is based primarily upon a quantitative
understanding, and it is possible to monitor and measure compliance with procedures
and process metrics. All process stakeholders are aware of risks, the importance of IT
and the opportunities it can offer. Management defines tolerances under which
processes must operate. There is limited, primarily tactical, use of technology, based on
mature techniques and enforced standard tools. IT governance has been integrated into
strategic and operational planning and monitoring processes. Performance indicators
over all IT governance activities are being recorded and tracked, leading to enterprise
wide improvements. Overall accountability of key process performance is clear, and
management is rewarded based on key performance measures.
5 Optimized when
There is an advanced and forward-looking understanding of IT governance issues and
solutions. Training and communication are supported by leading-edge concepts and
techniques. Processes are refined to a level of industry good practice, based on results
of continuous improvement and maturity modeling with other organizations. The
implementation of IT policies leads to an organization, people and processes that are
quick to adapt and fully support IT governance requirements. All problems and
deviations are root cause analyzed, and efficient action is expediently identified and
initiated. IT is used in an extensive, integrated and optimized manner to automate the

                                                                                       67
                                                                           APPENDIX III


workflow and provide tools to improve quality and effectiveness. The risks and returns of
the IT processes are defined, balanced and communicated across the enterprise.
External experts are leveraged and benchmarks are used for guidance. Monitoring, self-
assessment and communication about governance expectations are pervasive within the
organization, and there is optimal use of technology to support measurement, analysis,
communication and training. Enterprise governance and IT governance are strategically
linked, leveraging technology and human and financial resources to increase the
competitive advantage of the enterprise. IT governance activities are integrated with the
enterprise governance process.




                                                                                      68
MAPPING NIST 800-53 REV 3
WITH COBIT 4.1
            Control Objective                       NIST SP 800-53 Revision 3
                                             Coverage          Requirements
Plan and Organize
PO1    Define a Strategic IT Plan            A         SA-2, CA-7, and CM-2
PO2    Define the Information Architecture   A         CM-1, CM-2, AC-3, SI-1, SI-4,
                                                       SI-7, SI-10
PO4    Define the IT Processes,              A         AC-5, AC-6, PS-2, PS-7
       Organization and Relationships
PO5    Manage the IT Investment              A         SA-2
PO8    Manage Quality                        A         SA-3
PO10 Manage Projects                         A         CA-1
Acquire and Implement
AI2    Acquire and Maintain Application      A         AU-2, SI-7, SI-10, SA-1, SA-3,
       Software                                        SA-4, SA-8, SA-11, AC-3, IA-2,
                                                       MA-2, and SC-2
AI3     Acquire and Maintain Technology      A         SA-3, SA-4, SA-8, SA-11, MA-2
        Infrastructure
AI5     Procure IT Resources                 A         SA-1 and SA-4
AI7     Install and Accredit Solutions and   A         CA-4 and CA-6
        Changes
Deliver and Support
DS1     Define and Manage Service Levels     A         SA-9
DS2     Manage Third-party Services          A         PS-7 and SA-9
DS10 Manage Problems                         N/A
Monitor and Evaluate
ME1 Monitor and Evaluate IT                  N/A
        Performance
ME3 Ensure Compliance with External          N/A
        Requirements
ME4 Provide IT Governance                    N/A


Legend: (A) Some aspects are addressed
        (N/A) Not addressed




                                                                                69
